<html>
<title> - THE FEDERAL AVIATION ADMINISTRATION'S AGING ATC FACILITIES: INVESTIGATING THE NEED TO IMPROVE FACILITIES AND WORKER CONDITIONS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
      THE FEDERAL AVIATION ADMINISTRATION'S AGING ATC FACILITIES: 
   INVESTIGATING THE NEED TO IMPROVE FACILITIES AND WORKER CONDITIONS

=======================================================================

                                (110-63)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 24, 2007

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                    U.S. GOVERNMENT PRINTING OFFICE
36-964                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia    JOHN L. MICA, Florida
PETER A. DeFAZIO, Oregon             DON YOUNG, Alaska
JERRY F. COSTELLO, Illinois          THOMAS E. PETRI, Wisconsin
ELEANOR HOLMES NORTON, District of   HOWARD COBLE, North Carolina
Columbia                             JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             WAYNE T. GILCHREST, Maryland
CORRINE BROWN, Florida               VERNON J. EHLERS, Michigan
BOB FILNER, California               STEVEN C. LaTOURETTE, Ohio
EDDIE BERNICE JOHNSON, Texas         RICHARD H. BAKER, Louisiana
GENE TAYLOR, Mississippi             FRANK A. LoBIONDO, New Jersey
ELIJAH E. CUMMINGS, Maryland         JERRY MORAN, Kansas
ELLEN O. TAUSCHER, California        GARY G. MILLER, California
LEONARD L. BOSWELL, Iowa             ROBIN HAYES, North Carolina
TIM HOLDEN, Pennsylvania             HENRY E. BROWN, Jr., South 
BRIAN BAIRD, Washington              Carolina
RICK LARSEN, Washington              TIMOTHY V. JOHNSON, Illinois
MICHAEL E. CAPUANO, Massachusetts    TODD RUSSELL PLATTS, Pennsylvania
JULIA CARSON, Indiana                SAM GRAVES, Missouri
TIMOTHY H. BISHOP, New York          BILL SHUSTER, Pennsylvania
MICHAEL H. MICHAUD, Maine            JOHN BOOZMAN, Arkansas
BRIAN HIGGINS, New York              SHELLEY MOORE CAPITO, West 
RUSS CARNAHAN, Missouri              Virginia
JOHN T. SALAZAR, Colorado            JIM GERLACH, Pennsylvania
GRACE F. NAPOLITANO, California      MARIO DIAZ-BALART, Florida
DANIEL LIPINSKI, Illinois            CHARLES W. DENT, Pennsylvania
DORIS O. MATSUI, California          TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ACURI, New York           JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee
JERRY McNERNEY, California
VACANCY

                                  (ii)

  
?

                        Subcommittee on Aviation

                 JERRY F. COSTELLO, Illinois, Chairman

BOB FILNER, California               THOMAS E. PETRI, Wisconsin
LEONARD L. BOSWELL, Iowa             HOWARD COBLE, North Carolina
RICK LARSEN, Washington              JOHN J. DUNCAN, Jr., Tennessee
RUSS CARNAHAN, Missouri              VERNON J. EHLERS, Michigan
JOHN T. SALAZAR, Colorado            STEVEN C. LaTOURETTE, Ohio
DANIEL LIPINSKI, Illinois            FRANK A. LoBIONDO, New Jersey
NICK LAMPSON, Texas                  JERRY MORAN, Kansas
ZACHARY T. SPACE, Ohio               ROBIN HAYES, North Carolina
BRUCE L. BRALEY, Iowa                SAM GRAVES, Missouri
HARRY E. MITCHELL, Arizona           JOHN BOOZMAN, Arkansas
JOHN J. HALL, New York               SHELLEY MOORE CAPITO, West 
STEVE KAGEN, Wisconsin               Virginia
STEVE COHEN, Tennessee               JIM GERLACH, Pennsylvania
NICK J. RAHALL, II, West Virginia    MARIO DIAZ-BALART, Florida
PETER A. DeFAZIO, Oregon             CHARLES W. DENT, Pennsylvania
ELEANOR HOLMES NORTON, District of   TED POE, Texas
Columbia                             DAVID G. REICHERT, Washington
CORRINE BROWN, Florida               CONNIE MACK, Florida
EDDIE BERNICE JOHNSON, Texas         JOHN R. `RANDY' KUHL, Jr., New 
ELLEN O. TAUSCHER, California        York
TIM HOLDEN, Pennsylvania             LYNN A WESTMORELAND, Georgia
MICHAEL E. CAPUANO, Massachusetts    MARY FALLIN, Oklahoma
DORIS O. MATSUI, California          VERN BUCHANAN, Florida
MAZIE K. HIRONO, Hawaii              JOHN L. MICA, Florida
VACANCY                                (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Brantley, Tom, President, Professional Airways Services 
  Specialists, AFL-CIO...........................................    30
Forrey, Patrick, President, National Air Traffic Controllers 
  Association....................................................    30
Gilbert, Patricia, Chair, National Legislative Committee, 
  National Air Traffic Controllers Association...................    30
Johnson, David B., Vice President for Terminal Services, Air 
  Traffic Organization, Federal Aviation Administration..........    10
Zaidman, Steven B., Vice President of Technical Operations 
  Services, Air Traffic Organization, Federal Aviation 
  Administration.................................................    10

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Costello, Hon. Jerry F., of Illinois.............................    49
Matsui, Hon. Doris O., of California.............................    57
Mitchell, Hon. Harry E., of Arizona..............................    59
Oberstar, Hon. James L., of Minnesota............................    62
Salazar, Hon. John T., of Colorado...............................    66

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Brantley, Tom....................................................    69
Forrey, Patrick..................................................    80
Johnson, Bruce...................................................    96

                        ADDITIONS TO THE RECORD

Federal Aviation Administration, response to questions from the 
  Subcommittee...................................................   104
FAA Aging Facilities Conditions, chart...........................   107
FY-2007 Ops Funded Sustain Projects_by Service Area/District, 
  chart..........................................................   109
Asbestos Survey Report Form......................................   137
Eastern Service Area Prioritized List FY-07 Ops Funded Projects, 
  chart..........................................................   138
Eastern Service Area Prioritized List FY-07 Facilities and 
  Equipment Projects, chart......................................   172

[GRAPHIC] [TIFF OMITTED] T6964.001

[GRAPHIC] [TIFF OMITTED] T6964.002

[GRAPHIC] [TIFF OMITTED] T6964.003

[GRAPHIC] [TIFF OMITTED] T6964.004

[GRAPHIC] [TIFF OMITTED] T6964.005

[GRAPHIC] [TIFF OMITTED] T6964.006

[GRAPHIC] [TIFF OMITTED] T6964.007

[GRAPHIC] [TIFF OMITTED] T6964.008



   HEARING ON FAA'S AGING ATC FACILITIES: INVESTIGATING THE NEED TO 
                IMPROVE FACILITIES AND WORKER CONDITIONS

                              ----------                              


                         Tuesday, July 24, 2007

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                  Subcommittee on Aviation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Jerry 
F. Costello [Chairman of the Subcommittee] presiding.
    Mr. Costello. The Subcommittee will come to order.
    The Chair will ask all Members, staff and everyone to turn 
electronic devices off or on vibrate.
    The Subcommittee is meeting here today to hear testimony on 
the FAA's Aging Air Traffic Control Facilities: Investigating 
the Need to Improve Facilities and Worker Conditions.
    I will give a brief opening statement and then call on the 
Ranking Member to give an opening statement as well.
    I want to welcome everyone here to our hearing today on the 
FAA's aging ATC facilities and the need to improve facilities 
and conditions for the FAA workers.
    The FAA provides air traffic control services at over 400 
Agency-operated air traffic control facilities throughout the 
Nation. Many of these facilities are over 40 years old, 
exceeding their useful life expectancy and not meeting current 
operational requirements. This has resulted in a General 
Services Administration Facility Condition Index rating of fair 
to poor.
    Further, this Subcommittee and other interested 
stakeholders like NATCA and PASS have expressed concerns as to 
whether the FAA has adequately funded the much needed facility 
repairs and improvements, given the Agency's capital account 
has remained flat over the past several years. The 
Administration consistently proposes a level of F&E funding 
well below the authorized level.
    In 2003, the FAA requested and received from the Congress 
an authorization of approximately $3 billion per year for its 
capital program. Yet, for the past three years, the 
Administration has requested roughly $2.2 billion per year for 
its F&E capital program, well below the authorized level.
    The fiscal year 2008 budget is no exception. The 
Administration is once again requesting $2.46 billion for 
capital spending.
    According to the capital investment plan estimates, 
approximately half of the F&E budget is set aside for equipment 
and modernization. Yet, the FAA has not requested additional 
F&E funding for routine maintenance and repair of aging FAA 
facilities.
    I have said before that we cannot put the cart before the 
horse when it comes to modernization. While the FAA continues 
to lay the groundwork for modernization, it must also ensure 
that the current system can continue to operate in a safe and 
reliable way by properly investing in the maintenance and 
upkeep of existing infrastructure. The FAA must also provide 
safe, healthy working conditions for its employees.
    That is why in H.R. 2881, the FAA Reauthorization Act of 
2007, we provide historic funding levels for the FAA's capital 
programs including nearly $13 billion for F&E, over $1 billion 
more than the Administration requested.
    I am disturbed by the employee reports of excessive 
unhealthy levels of mold and asbestos, leaking roofs and other 
infrastructure issues, insufficient ventilation, and improperly 
housed conditions and equipment.
    Both PASS and NATCA report, the FAA is in direct violation 
of safety regulations including those mandated by OSHA. To 
illustrate the point, we are going to show a very brief video 
clip from the Grand Rapids tower at this time. This clip was 
actually filmed in the Fall of 2005.
    I would ask at this time to show the clip.
    [Video shown.]
    Mr. Costello. The Chair thanks Mr. Miller for showing the 
clip.
    Obviously, again that was taken in the fall of 2005 at the 
Grand Rapids facility. It is alarming to see the water coming 
through the roof and actually on the counter of the control 
tower. This is just one facility. I believe that there are 
others that could have been filmed then or today.
    Again, it is alarming and disturbing that we allow our 
facilities to deteriorate to this extent. No one should have to 
work in these conditions, and it is unacceptable.
    I am interested in hearing our FAA witnesses' response to 
this clip and some of the other facilities that we will be 
discussing today.
    I question whether the FAA has a comprehensive strategy to 
effectively manage the replacement, repair and modernization of 
its air traffic control facilities and equipment and whether 
sufficient funds are being used to carry out these important 
health and safety functions.
    Finally, in the Administration's FAA reauthorization 
proposal, they provide for a BRAC-like process to consolidate 
and relocate facilities. A BRAC process is an abdication of 
responsibility on the part of the Congress. Congress has always 
made decisions and provided oversight based on recommendations 
and analysis from Federal agencies. In consolidating and 
realigning the FAA facilities, that process should be no 
different.
    The FAA should not only engage with Congress but with the 
stakeholders affected. If the FAA identifies facilities that 
are truly not needed, then the FAA should identify those 
facilities, put them in their budget and come here and explain 
to the Congress where the facilities are located and why they 
should be consolidated or closed.
    In our reauthorization bill that passed the Full Committee 
and is on its way to the Floor of the House, we created an open 
continuous and defined process, something which the FAA should 
have done from the start. Contrary to statements that may be 
made here today, the bill does not--and I repeat--the bill does 
not impose a moratorium.
    Instead, our bill allows affected stakeholders to work 
together with the FAA to develop criteria and make 
recommendations that will be submitted to the Congress and 
published in the Federal Register for proper review and 
oversight. Any objections or changes made to those 
recommendations must again be submitted to the Congress. 
Congress does not relinquish its role but instead can provide 
thorough review, oversight and input.
    With that, at this time, I welcome our witnesses here today 
and look forward to hearing their testimony.
    Before I recognize the Ranking Member, Mr. Petri, for his 
opening statement, I ask unanimous consent to allow for two 
weeks for all Members to revise and extend their remarks and to 
permit the submission of additional statements and materials by 
Members and witnesses. Without objection, so ordered.
    At this time, the Chair recognizes the Ranking Member, Mr. 
Petri, for his opening statement.
    Mr. Petri. Thank you very much, Mr. Chairman.
    We are meeting to discuss the current condition of our 
Nation's air traffic control facilities and equipment.
    While the FAA is ultimately responsible for the upkeep of 
its facilities, it is not alone in the responsibility for the 
current condition. Over the past years, Congress has authorized 
funding for the FAA to maintain and improved their facilities, 
yet it has continually been under-appropriated and earmarked by 
Congress. By the time the money reaches the FAA, the Agency 
ofttimes does not have the adequate discretion it needs on how 
to spend it.
    The FAA has over 400 air traffic control facilities for 
which they are partly or wholly responsible for maintenance.
    Clearly, no one here today is in denial that FAA tower 
facilities are in need of constant upkeep and repair. In fact, 
there are some that actually need immediate attention. However, 
their average facility condition level as determined by the 
scorekeeper, the General Services Administration, is 93.2 
percent which earns a fair condition rating under the GSA's 
scorecard.
    For comparison purposes, many other Government facilities 
earn lower grades. According to the GSA, the FAA headquarters 
building itself, where two of our witnesses are located, has a 
rating not of 93.2 percent as the average facility condition 
level but rather of 76 percent. The average Government family 
housing earns a rating of roughly 77 percent, and the average 
Federal office space has a rating of roughly 63 percent, fully 
a third lower than the facility rating for the average air 
traffic control facilities.
    These numbers demonstrate that less than desirable facility 
conditions are not FAA-specific. Rather, they are government-
wide, and we have a bigger problem than just this one.
    According to the FAA, it receives a $100 million to $150 
million annually for replacement costs. While it sounds like an 
ample amount of money, I understand that it is only enough 
funding to complete just one-third of the replacements every 10 
years. At this rate, a facility commissioned in 2006 would not 
be replaced until 2093, 87 years later.
    Even if the FAA received $200 million a year, double what 
it is currently receiving for maintenance, the replacement 
schedule would still take more than 40 years per facility.
    In an environment where resources are scarce, integrated 
planning and budgeting are needed, and so I am looking forward 
to hearing about FAA's plans going forward.
    The fact remains that FAA's maintenance backlog for 
terminal facilities is not declining. Rather, it is growing. In 
2006, it was $124 million, and it will reach $182 million 
backlogged by 2020.
    The FAA needs the authorized funding levels made available 
to it and more in the future. It is unrealistic to think that 
the FAA can keep all of its facilities in excellent condition 
if they are not provided the money to do it.
    Perhaps the most important factor in the state of our air 
traffic control facilities is the relation to the modernization 
effort. As we progress into the NextGen system, it will be 
vital that we update our facilities and keep them in the best 
possible condition and continue to update them with a mindful 
eye toward future needs. We cannot put our brand new and costly 
systems into buildings that are simply unfit to house them. 
Delaying the replacement and renovation of our air traffic 
control facilities will delay NextGen's implementation, and we 
all know that that is a cost that the Nation and the traveling 
public cannot afford.
    Mr. Chairman, thank you for holding this important hearing. 
I look forward to hearing from our witnesses and yield back any 
time remaining.
    Mr. Costello. The Chair thanks the Ranking Member and now 
recognizes the gentleman from Texas, Mr. Lampson.
    Mr. Lampson. Thank you, Mr. Chairman. I will be quite 
brief. I do appreciate you all holding this hearing.
    The fact that we have such a significant need for 
maintenance in our Nation's air traffic control system and 
facilities is obviously critical.
    I have been fighting these battles with TRACON for a number 
of years in southeast Texas and was opposed to much of the 
consolidation that has been going on. We have lost one facility 
in one of the districts that I represented at one time and now 
in another district. I think that there is continuing aging and 
disrepair of any of these facilities in the area where there is 
such significant growth.
    The Hobby Airport which is in my district, Houston Hobby 
Airport, and the Bush Intercontinental Airport which is nearby, 
is the eighth largest passenger airport in terms of enplaned 
passengers, and they are showing a 67 percent increase of the 
past 10 years. Considering the vast amount of traffic at these 
airports, we truly have to make certain that every piece of 
equipment used to control these airplanes is maintained and in 
working order at all times.
    Again, part of the reason why I opposed that consolidation 
is we have to take the responsibility to make sure that the 
equipment is working and that our passengers who are flying are 
safe.
    I appreciate your holding the hearing, Mr. Chairman, and 
look forward to hearing from this distinguished panel.
    Mr. Costello. The Chair thanks the gentleman from Texas and 
now recognizes the Ranking Member of the Full Committee, Mr. 
Mica.
    Mr. Mica. Thank you, Mr. Costello. I appreciate your 
hosting and conducting this hearing today.
    I think that it is important that the working conditions 
for our air traffic controllers, problems we have experienced, 
are addressed. It has been a concern of mine. The professionals 
that keep our airways safe and all FAA employees should have a 
safe, comfortable and modern equipped workplace.
    However, it is important to recognize that aging physical 
infrastructure is a government-wide problem that we face. The 
problem has accelerated in recent years because most Federal 
buildings were built over 50 years ago and are reaching the end 
of their useful lives. Other Government agencies including the 
State Department, NASA and GSA have maintenance backlogs 
totaling over $16 billion which is $6 billion more than we saw 
in the year 2005.
    I put up a little chart to show you, and this is my chart. 
GSA did a review of FAA's air traffic control facilities, the 
first bar we see there. This is an index of facility 
conditions, and it shows that the average condition on a scale 
I guess to 100 is 93.2 for FAA air traffic control towers. For 
the FAA headquarters, it shows a 76 which is a lot lower in the 
quality of the conditions.
    For hospitals, including our Veterans' hospitals which are 
Government facilities, air traffic control working conditions, 
tower conditions are actually better. If you skip over one to 
family housing which includes our military family housing, 
77.59 percent. Unfortunately, we see a problem.
    Our Committee deals with GSA and government housing in a 
number of areas and government facilities in a number of areas. 
As the authorizing Committee, the Transportation and 
Infrastructure Committee has consistently authorized funding 
levels consistent with the demands of the system.
    Unfortunately, we have seen the funding levels reduced or 
earmarked in the appropriations process. This has made it 
difficult for the FAA to adequately perform the mandates 
sometimes issued by Congress and has created a lengthy backlog 
of repairs and replacement needs. I have a list of appropriator 
earmarks that reprioritize facilities and equipment. 
Replacement earmarked items that were relatively low on the 
FAA's attention list were moved to the top and ahead of higher 
priority facility needs.
    Unfortunately, by Congress' constant meddling with the FAA 
repair priority list, it is no wonder we are having maintenance 
and we hear about some of these repair problems. Equally 
problematic as Congress' overriding repair assessments is 
Congress' interference in FAA's decision regarding airspace 
design and facility management and consolidation or closure.
    Where is today's paper that I gave you earlier?
    Here is a great example: FAA is Targeting Airline Delays. 
This is today's headline. It talks about how the FAA wants to 
deal with this.
    Unfortunately, we see that even today on the House Floor, 
we will have measures that end up trying to close down some of 
the efforts for airspace redesign and we will also, I think, 
see an effort, at least I saw one amendment crafted, to thwart 
some of the consolidation.
    Critical to the success of Next Generation and the day 
solvency of the FAA's facilities and equipment budget is the 
ability to realize the cost savings that consolidation and 
relocation can provide. We can provide new centrally located 
modernly equipped facilities that enable FAA to take advantage 
of new technologies and also take great steps towards the Next 
Generation air traffic control system. It does not make sense 
for FAA to continue to maintain old, obsolete facilities or the 
equipment housed there.
    However, in a fit of parochial politics, again some Members 
are against seeking to put a moratorium on consolidations even 
today. I urge my colleagues to refrain from such actions and 
continue to allow FAA to manage the Agency's resources 
properly.
    It also applies to FAA's attempts, as I said, to redesign 
our Nation's air space system. We have an air space system in 
the northeast that was designed, what, in 1987. Here, today, we 
are going to see another attempt to thwart a long process that 
we have tried to do in bringing in folks from around that 
region to come up with a new air space redesign.
    One way to eliminate this sort of protectionism in dealing 
with the situation that I have proposed is a BRAC-like vote on 
a comprehensive plan for consolidation. I proposed that 
legislation similar to the one proposed by the Administration 
that would establish a realignment and consolidation board and 
a process for aviation experts to recommend to the President 
and Congress how best to align FAA's facilities and personnel 
in a manner that most effectively advances the capabilities of 
our Nation's air system and best serves the traveling public.
    I would like to continue to work with my colleagues in the 
future on that provision. I hope we can adopt something.
    Another option to create efficiencies under a tight Federal 
budget without risking safety is utilizing the private sector 
where and when deemed appropriate. Since 1982, the FAA has been 
contracting out air traffic control jobs to the private sector 
at VFR airports, visual flight rule airports. These airports 
that would not otherwise have a tower have service. Currently, 
235 air traffic control towers are staffed by contract 
controllers, each of whom is certified by the FAA.
    The FAA's contract tower program provides cost effective 
services--these aren't my words--``cost effective services that 
are comparable to the quality and safety of FAA-operated 
towers'' according to then Inspector of the DOT, Ken Mead.
    We found in another study before I became Chair of the 
Subcommittee that validated this and then one that I asked for 
validated these findings that the operational air deviation 
rate at contract towers is 2.5 times better than at similar all 
FAA-operated VFR towers.
    In addition, in that September, 2003 report, the IG 
compared the cost to operate the 12 FAA towers to the cost of 
12 contract private sector operated towers of similar size and 
operations and found that each and every contract tower would 
save about a million dollars in operational costs than the all 
Federal towers. That is an average of $992,000 less per tower 
annually. These savings could be freed up and use the resources 
towards making certain that those facilities and all our 
facilities are in adequate repair.
    I defy anybody here to walk into the halls, in fact, of 
Congress or walk into the halls of any public building, 
government-run public building, and just look at the 
maintenance and the repair and the conditions and then go 
downtown and walk into almost any private sector building. You 
can immediately tell the difference in the repair.
    Finally, I am not sure who does all of the maintenance and 
repair at these facilities, but if they aren't keeping it up, 
they should be fired or if it is a contractor that is doing 
this, a private contractor, their contract should be terminated 
because our facilities, when we are paying taxpayer money to 
keep them up and repaired, they need to be in the best repair.
    I did visit at NAV CANADA--we don't have a witness here 
today--which privatized their entire system which I am not 
advocating, but I saw some of the best working conditions. I 
think we have some photos. You showed leaks and repairs. I 
don't know if we have these, but I have got plenty that I will 
be glad to show you about awesome facilities that the private 
sector provides their air traffic controllers in Canada.
    Our air traffic controllers, our professionals, should have 
no less in facilities, accommodation or working equipment than 
these folks to the north of us.
    Thank you.
    Mr. Costello. The Chair thanks the Ranking Member and 
recognizes the gentleman from Colorado, Mr. Salazar.
    Mr. Salazar. I want to thank you, Mr. Chairman, for this 
important hearing.
    You know, Mr. Chairman, I find it disturbing that the FAA 
has substantial maintenance backlog for repairs of many of 
their facilities. The current system I think, should be able to 
operate in a reliable manner while providing a safe and 
productive working environment for FAA employees. We simply 
cannot afford to wait on the current system as it deteriorates, 
and I agree that the 401 TRACON facilities need immediate 
detention.
    I have been talking to my constituents back in Pueblo and 
different parts of Colorado, and they also believe that we need 
to focus on the 9,000 smaller buildings and the 13,000 tower 
structures that need attention because that is where the user 
is going to see the biggest impact. It is those 22,000 
structures. In my district, for example, the flying public has 
raised many concerns with the decommissioned VORs, with the ILS 
shutdowns and numerous maintenance issues which directly affect 
the Colorado aviation system.
    Transitioning to NextGen will require significant 
investment by every user in order to save taxpayer dollars to 
maintain legacy equipment. Users will be able to effectively 
budget the investment necessary to have access to the NAS if 
the FAA will clearly articulate and publicize the plan.
    This was not the case when I approached the FAA about the 
concerns I had with a rumored co-location of the Pueblo TRACON. 
It took numerous letters, meetings and phone conversations 
before the FAA reluctantly provided me with rough details about 
their proposed plan.
    The FAA's initial efforts to decommission Nav-Aids and 
consolidate facilities suggest that the Agency is aware of 
current and future budget problems they face, but I firmly 
believe the solution lies in working with the stakeholders 
instead of surprising them with emergencies.
    I don't think it is too much to ask that every state has a 
clear idea of what the FAA plan is to decommission or 
consolidate facilities as a way to modernize the system. The 
key lies in communication. The FAA needs to work with the State 
and users instead of delivering a plan at the end of a long 
process that becomes the only available option.
    I would also like to stress how vital the F&E program is to 
the users of the system in maintaining the existing 
infrastructure. It is critically important to being able to 
successfully move to NextGen.
    I can't emphasize the point enough: When changes need to be 
made, communications with stakeholders is critical.
    I look forward to the testimony today, and I thank the 
panel and the Members for being here.
    Thank you, Mr. Chairman. I yield back.
    Mr. Costello. Thank you, Mr. Salazar.
    The Chair now recognizes the gentleman from North Carolina, 
Mr. Hayes.
    Mr. Hayes. Thank you, Mr. Chairman, and thank you for 
holding the hearing today and our witnesses for being here. We 
need to hurry up and get to the witnesses, don't we?
    I think this is a unique opportunity for the FAA and 
NextGen, the controllers, the stakeholders, the users to get 
themselves together. As Mr. Salazar said, communication will be 
critical.
    The FAA has assured me, and I have no reason to disbelieve 
them, that this is a new generation of cooperation, 
coordination and communication between themselves and the 
controllers and other folks. That is a great thing and I am 
convinced that they are going to do that, and I am going to 
enthusiastically encourage them to do that.
    Having said that, Next Generation holds tremendous promise 
for the aviation community, everybody involved. If we do this 
right, it will be the FAA doing something for the aviation 
community instead of the FAA doing something to the community. 
As we move forward with that and making sure that facilities 
are appropriate whether it be combination, and communication 
with the folks who may be affected in a reasonable time to do 
that will assure that.
    So, having said all that, Mr. Costello, I think this again 
is a unique opportunity to bring all the players to the table 
in the right frame of mind and come up with something that at 
the end of the day will be a tremendous improvement and a cost 
savings to everybody concerned.
    I thank you.
    Mr. Costello. The Chair thanks the gentleman and recognizes 
the gentleman from Texas, Mr. Poe.
    Mr. Poe. Thank you, Mr. Chairman. I want to thank both of 
you for being here today.
    I represent that area of Texas that has Beaumont, Texas 
with a TRACON, and we border Houston Intercontinental Airport.
    As you know, Mr. Johnson, people are very concerned in 
Beaumont, Texas. I want to thank you at the outset for your 
willingness to come to Texas in August and go into the lion's 
den and explain to folks in Beaumont the FAA's concerns. I 
don't think it will be as vicious as maybe you are expecting, 
but I want to thank you for coming there.
    I am not convinced that fewer TRACONs will be safer or more 
efficient, and I am also not convinced that having more 
airplanes in the air and having fewer TRACONs will be safer. I 
am also concerned about consolidation and whether it is really 
going to save anybody any money. We heard all that with the 
BRAC closings. Now we are learning that maybe some of these 
closings of military bases didn't save the taxpayers any money 
at all include Ellington Field in Houston, Texas.
    As a side note, we have air traffic controllers that are 
getting old, and I am very concerned about the future of that 
profession because I do think it is a profession.
    One other thing, just in my limited experience of being in 
Congress, FAA seems to have a reputation with me and my office 
and other offices, maybe Mr. Salazar's, of not being quite as 
easy to deal with in communication. It is interesting that FAA, 
of all things, cannot seem to communicate very well about what 
their positions. I hope that that reputation does change with 
some action.
    I think one step, Mr. Johnson, is the fact that you are 
willing to come to Texas and state a position to the 
stakeholders down in southeast Texas who are very concerned 
about the loss of that facility in Beaumont.
    So thank you both for being here, and I yield back, Mr. 
Chairman.
    Mr. Costello. The Chair thanks the gentleman.
    Do other Members have opening statements?
    If not, the Chair will go to our first panel of witnesses. 
Let me introduce the witnesses on our first panel: Mr. David 
Johnson who is the Vice President for Terminal Services, Air 
Traffic Organization with the Federal Aviation Administration 
and Mr. Steven Zaidman who is the Vice President of Technical 
Operations Services of the Air Traffic Control Organization 
with the FAA.
    Gentlemen, I would ask you to summarize your statements. 
Your entire statement will be submitted for the record.
    I would like to follow up on Mr. Poe's comment because I 
share his view concerning consolidation of some of the TRACONs, 
I think there has been a lack of communication on the part of 
the FAA communicating not only with Members of Congress but 
also the stakeholders as well to solicit their input.
    That is one of the reasons why in the reauthorization bill, 
the House bill, that we put a mechanism in place that, in fact, 
has the stakeholders involved in the process, solicits their 
opinions, and it is a process if, in fact, it becomes law that 
I believe that everyone, not only the stakeholders but everyone 
who is affected, will have the opportunity for their input. 
That is something that has been lacking.
    Let me also mention that the Ranking Member of the Full 
Committee, Mr. Mica, made a couple of points that I agree with. 
One is that the amendments that will be on the Floor today, one 
dealing with both air space redesign and consolidation of 
facilities, I intend to go to the Floor to oppose both of those 
amendments. There is no question, as the headlines suggested, 
we have a major problem in the New York-Philadelphia-New Jersey 
area, and we should let the FAA move forward with the air space 
redesign and we shouldn't stop the process in my judgment.
    Secondly, with the consolidation of the TRACONs, again 
there is a process that we would like to see in place in the 
base bill, and we need to move forward with that process.
    Finally, before I turn to you, Mr. Johnson, let me say that 
I am concerned. While there is no question we have heard from 
Members in their opening statements that there are Federal 
facilities outside of the FAA that are rated as poor, similar 
to many of the facilities that we will be discussing today, the 
fact is that the Federal Aviation Administration has an 
authorized level of $3 billion per year for the facilities and 
equipment account. The Congress saw fit at the request of the 
FAA to approve an authorization of $3 billion a year.
    I will be interested in hearing from you as to why the 
Administration has requested less than the authorized level 
every year, knowing that many of these facilities need to be 
upgraded.
    Finally, I would be interested in hearing from both of you. 
Everyone wants to see modernization as Mr. Mica and Mr. Hayes 
and everyone has commented on, but we all recognize that it is 
going to be a long process, that it may be as long as 10 years 
before it is implemented. The point that I made in my opening 
statement is that while we are focusing on NextGen and we all 
recognize that we need to move forward and we also know that it 
is going to take 10 years or so in order to get the system up 
and running, we cannot continue to neglect our existing 
facilities.
    So what I would be interested in hearing from you is, one, 
why the Agency has not requested the full authorization level 
every year for the past three years and, two, my concern about 
all of the focus is on NextGen and neglecting the existing 
facilities that we are going to have to operate out of and from 
for the next 10 years.
    With that, Mr. Johnson, you are recognized under the five 
minute rule.

  TESTIMONY OF DAVID B. JOHNSON, VICE PRESIDENT FOR TERMINAL 
     SERVICES, AIR TRAFFIC ORGANIZATION, FEDERAL AVIATION 
ADMINISTRATION; STEVEN B. ZAIDMAN, VICE PRESIDENT OF TECHNICAL 
OPERATIONS SERVICES, AIR TRAFFIC ORGANIZATION, FEDERAL AVIATION 
                         ADMINISTRATION

    Mr. Johnson. Thank you, Chairman Costello, Congressman 
Petri, Members of the Subcommittee. We are pleased to appear 
before you today to discuss the Federal Aviation 
Administration's efforts to improve aging air traffic control 
facilities and the worker conditions at those facilities.
    Again, my name is Bruce Johnson, and I am the Vice 
President of Terminal Services in the ATO. I am responsible for 
all the towers, TRACONs and radar systems around the Country.
    With me today is Steve Zaidman, the ATO's Vice President of 
Technical Operations, and Steve is responsible for the 
maintenance of the entire National Airspace System.
    As you know, the FAA faces some tough challenges with some 
of our aging facilities. We have hundreds of air traffic 
control facilities around the Country and over 22,000 unmanned 
facilities and structures, and we recognize that we have 
maintenance and repair backlogs at a number of those 
facilities. We are addressing those on a continual basis.
    We also have the challenge of making sure that the FAA will 
be able to reduce air travel delays by continuing on the path 
to a smooth transformation the Next Generation air traffic 
control system or NextGen.
    To achieve these goals, we have developed the multi-tiered 
approaches below. First, we have our sustainment program which 
covers all maintenance and repair work. We also have a 
replacement program where we assess our facilities and replace 
them with new facilities when needed. Last, but by no means 
least, we are continuing our transition to NextGen by updating 
our equipment and technology.
    As our facilities age, we strive to get the most mileage 
out of them. We complete hundreds of maintenance and repair 
projects at our staffed facilities every year. Maintenance and 
repairs impacting worker and operational safety, as always, are 
our first priority. Other high priority needs such as a leaking 
roof or an air conditioner outage during the summer are 
addressed immediately while lower priority needs such as new 
paint and carpet are planned through the normal budget cycle.
    Additionally, we are taking steps to reduce the large 
maintenance and repair backlog. We are continually doing 
building condition assessments for various type facilities to 
determine what repairs are needed and how to budget for them.
    Our transition to NextGen is also helping to address this 
backlog. As we move forward with NextGen, we are developing 
individual facility life cycle plans which will allow us to be 
more proactive in planning which of our facilities move 
forward. Additionally, we have facilities in our system that 
have so many issues that to repair and remediate them 
indefinitely would be financially unsound and, in some cases, 
completely at odds with NextGen.
    A central element of the FAA's transformation into NextGen 
intersects with our work on replacement and consolidation of 
our facilities. Consolidation helps improve safety and 
efficiency by making new technologies available for 
controllers. These savings and improvements mean fewer air 
traffic delays and lower costs.
    The FAA has proven that we can safely and efficiently 
consolidate both air space and facilities. For example, in 
2002, the FAA consolidated the air space that used to be 
managed by five separate facilities in the Baltimore-Washington 
Metropolitan Area into one brand new facility called the 
Potomac Terminal Approach Control. The Baltimore-Washington air 
space consolidation has been extremely successful, saving 
millions of dollars in fuel, reducing carbon emissions, 
reducing noise exposure and reducing delays.
    However, we must note to the Subcommittee that H.R. 2881 as 
currently drafted would impose a moratorium on any FAA 
consolidation plans and prohibit FAA from managing our assets. 
This would halt our transition to NextGen at the time it is 
most needed. Additionally, it would affect numerous FAA 
programs including airport redevelopment and expansion.
    We recognize that consolidation is a highly emotional and 
sensitive issue which is why the Administration proposed a 
process whereby objective recommendations would be made 
regarding which facilities to consolidate. Then public input 
would be considered. Presidential review would be required, and 
ultimately Congressional action would be necessary.
    We believe this approach is the fairest way for FAA to make 
objective, informed decisions about facility consolidation. 
However, we must be able to continue forward with this initial 
group of consolidations while this process is being developed.
    We strongly urge the Subcommittee to reconsider the 
Administration proposal when H.R. 2881 goes to the Floor for 
consideration. We are keenly appreciative of the uncertainty 
and concern change can cause, but it is simply unrealistic to 
expect that a major overhaul of the Nation's air traffic 
control system can result without it.
    FAA's mission is to ensure aviation safety, and we want to 
do that in conjunction with minimizing delays as much as 
possible. As you all know, today's aviation system is operating 
at full capacity, making our transition to NextGen an absolute 
necessity.
    At every phase, we are taking steps to minimize worker 
disruption and ensure smooth transitions. Wherever possible, we 
do not require anyone to relocate. In those cases where 
relocation is unavoidable, workers will be offered a fully paid 
move and notified well in advance of the transition.
    In fact, worker conditions are always a major concern. 
Maintenance and repairs, replacement of facilities and 
transitioning to NextGen are all conducted with worker 
conditions in mind. We have procedures in place to protect 
worker safety as construction projects get underway.
    FAA's transition to NextGen is a lengthy phased process. 
Until we achieve our final goals, we are committed to working 
on remedies available to us, whether that entails further 
maintenance and repairs or replacement of a facility. Our 
multi-tiered approach to maintaining, improving and replacing 
our aging facilities is designed to get us NextGen without any 
compromise in safety and with maximum levels of efficiency.
    Mr. Chairman, this concludes our testimony. We will be very 
happy to answer any questions the Subcommittee may have.
    Mr. Costello. Mr. Zaidman, do you have an opening 
statement.
    Mr. Zaidman. No, I don't.
    Mr. Costello. So you have no testimony to present. You are 
here to answer questions?
    Mr. Zaidman. Yes.
    Mr. Costello. You will take the difficult questions, right?
    Mr. Zaidman. Absolutely.
    Mr. Costello. Okay.
    Mr. Johnson, let me ask you. In your FCI, the Facility 
Condition Index, the assessment of the TRACONs and towers, it 
is my understanding that the FAA has only conducted and 
approved the FCI assessments on 89 of the 401 TRACONs and 
towers. Is that correct?
    Mr. Johnson. Yes, Mr. Chairman.
    Mr. Costello. You have really only done an assessment on 89 
of 401, so the vast majority of these TRACONs and towers have 
not been assessed.
    Mr. Johnson. That is correct.
    Mr. Costello. I am wondering are you really in a good 
position to testify before this Subcommittee today or for the 
FAA to come here and talk about these facilities if you have 
only done an assessment on a small portion of that. Would you 
like to comment?
    Mr. Johnson. Absolutely. What we did with the FCI program 
is we took a representative group of facilities which included 
this 89. We took examples from every type of facility that we 
had in the system. So we actually went through the entire list. 
We pulled out these as examples and did the full assessment on 
these 89.
    We will continue to do 12 additional assessments every 
year, and again we will do different types and kinds of 
facilities as we do the assessment.
    We think that the 93.2 percent rating that came out through 
the FCI is pretty indicative of the entire system as it looks 
now. We know that there are going to be outliers on that. But, 
in fact, the cost of these assessments, we felt like the 90 
that we did was a fair assessment without burdening the budget 
to do every facility.
    Mr. Costello. When you say that you will do 12 a year, how 
do you determine which 12? How do you select those facilities?
    Is it based on complaints? What is it based on?
    Mr. Johnson. The planning group that we have will go 
through and, again, make sure that they take facilities from 
every group. It could be, in fact, that some of these are 
indicative of what may have happened during the case and in the 
case we had issues with some of the facilities, then we would 
put those on the list to be assessed.
    Mr. Costello. If there are a number of complaints at a 
particular TRACON or air traffic control tower, you would 
definitely put them on the priority list, is that what you are 
saying, versus a facility where there are no complaints?
    Mr. Johnson. Right. We would want to look at those where we 
knew that we had issues.
    Mr. Costello. Do you have a process for investigating 
complaints from controllers concerning health complaints?
    I think we will hear testimony in the next panel and I have 
read testimony about mold and other conditions and that these 
conditions are causing health problems with employees and with 
controllers. What is the process to make an assessment of a 
controller's health based upon any complaint that may be made?
    Mr. Johnson. Well, there are, of course, always forms that 
are filled out by the controllers if they feel like that there 
was cause to do so, especially in the facility. At that time, 
the facility manager would confer with the tech ops managers, 
and they would look at whatever condition it was that might 
have caused the complaint to be filed or the CA1 or CA2 forms 
that we call them if a controller is seeking medical attention 
or has an issue in facility.
    Mr. Costello. Can you or Mr. Zaidman tell the Subcommittee 
today how many forms have been filled out and filed with the 
Agency from controllers or any employees that have complained 
about health problems that they believe are a result of these 
unsafe and unhealthy conditions in the last year?
    Mr. Johnson. I am sorry. I can get that for you, Mr. 
Chairman, but I don't have that information with me today.
    Mr. Costello. You must have some idea if there has been a 
complaint filed in the last six months. You have to have some 
idea. I don't expect the exact number.
    Mr. Zaidman. I can tell you specific to facilities but not 
a total at this time, Mr. Chairman.
    Mr. Costello. Can you move your microphone a little closer?
    Mr. Zaidman. Yes. For instance, we have had issues at 
Jacksonville. We have had issues at Dulles Tower, for example, 
and we have had between 5 and 15 controllers fill out this 
form, which is called in our parlance a CA1, indicating some 
health issues as a result of some unsatisfactory conditions in 
the facility.
    Mr. Costello. Walk us through the process. Once the form is 
filled out by a controller or an employee who says that they 
believe that they have a health problem related to the unsafe, 
unhealthy conditions, what is the next step after they fill the 
form out?
    Mr. Zaidman. Yes, and whether or not the form is filled 
out, it is the same process.
    We have trained people called environmental and safety 
officials. They are FAA employees. We bring them in. We do a 
visual inspection often times with the employees. We assess the 
condition. We typically bring in a third party to do air 
samples when required. We mitigate the issue right away to the 
best of our ability, but there is also an underlying issue, a 
structural issue, many times, for why this happens.
    We hire an engineering firm. We do an engineering 
assessment. Depending on the severity of the problem and the 
criticality of the issue, then we enter into what is called a 
corporate work plan to make the permanent repairs.
    Mr. Costello. Mr. Johnson, two questions that I asked 
before your testimony: One, can you tell the Subcommittee why 
the Agency has only submitted a request for $2.5 billion a 
year, much less than the Agency requested the authorization 
level to be at $3 billion?
    The Congress approved a $3 billion authorization every year 
for the last 3 years in order to address these problems for the 
facilities and equipment, but then the Agency only requested 
less than what was authorized.
    Mr. Johnson. I can tell you about the process coming out of 
Terminal. We do our assessment of what we feel our needs are. 
That goes up through our Air Traffic Organization Financial 
Group, and then they work with the ATO Financial Group to come 
up with the request. Sometimes, as you know, the request was 
for more. It goes through the two financial groups and comes 
out at a different number.
    So we make the request based on the amount of money that we 
feel like we would need, say, in Terminal. I can't speak for 
what En-Route or Tech Ops do, which obviously is considerably 
less than the total. I don't know where or know how the cut 
line is made.
    Mr. Costello. By the FAA's own admission, I mean you 
recognize these facilities are old. Some of them are in need of 
repair. You recognize that and everyone admits that.
    It is your responsibility. This is your area of 
responsibility. Are you saying that you agree with the fact 
that you are receiving less than what the Congress has approved 
in order to carry out your duties and responsibilities?
    I am not asking you to answer for the higher-ups as it goes 
through the food chain. I am asking you your responsibility for 
these facilities. Is the $2.5 billion a year adequate or would 
it have been better for the $3 billion to be approved so that 
you could have spent additional money to repair these 
facilities much quicker than what has been done?
    Mr. Johnson. The $2.5 billion is adequate for the amount of 
work that we could get done in any given year to work on the 
facilities.
    Now, again, I don't know. It is hard for me assess what 
comes out of Tech Ops and En-Route, reference the amount of 
money that comes out of Finance.
    Mr. Costello. So your answer is that the $2.5 billion is 
adequate for your needs?
    Mr. Johnson. The 2.5 is the amount of money that we get to 
work with, and we will use that money to the best of our 
ability to make the repairs that are needed in the terminal.
    Mr. Costello. But the additional money certainly would have 
helped.
    Mr. Johnson. Additional money would help, but the money 
that we get is the money that we use every year.
    Mr. Costello. The Chair at this time would recognize the 
Ranking Member of the Full Committee, Mr. Mica.
    Mr. Mica. Thank you. Just a few questions and I am going to 
have to go down to the Floor to try to protect our turf here in 
a second.
    Mr. Johnson, we have, what, about 400 and some towers total 
in the system?
    Mr. Johnson. Correct.
    Mr. Mica. I have 327 of those that FAA owns, correct?
    Mr. Johnson. Correct.
    Mr. Mica. Now there are also 74 airport-sponsored towers. 
Do they maintain them themselves or does FAA?
    Mr. Johnson. They maintain them to the extent they can.
    Mr. Mica. Were they part of your study or review? Did you 
review any of those?
    Mr. Johnson. Yes, we did.
    Mr. Mica. You did. How were the conditions with those 
compared to the all FAA towers, about the same?
    Mr. Johnson. I would say they were representative from 
across.
    Mr. Mica. We have FAA in charge of, then the responsibility 
for what, about 250 towers, maintaining them?
    Mr. Johnson. Right. Yes, sir.
    Mr. Mica. Is that all done in house or is some of that 
contract, the maintenance?
    Mr. Zaidman. Well, we have a responsibility for 
maintenance, and on occasion we do contract out.
    Mr. Mica. But I mean can you tell me is 90 percent of it 
maintained by FAA and then 10 percent contracted out?
    Mr. Zaidman. The physical plants are virtually all 
maintained by FAA. We do contract out.
    Mr. Mica. Have you looked at contracting that out?
    Mr. Zaidman. No, we haven't.
    Mr. Mica. I will tell you one thing. I was the Chief of 
Staff for Senator Hawkins from 1981 to 1985. I used go to into 
the Federal building in Miami, and every day it was a 
depressing entry.
    In fact, I go into these halls there, the Congress. It is 
depressing. This is like a medieval event where people throw 
their trash out and leave things, garbage in the hall. The 
maintenance is done in house, and it is terrible.
    I will never forget going into the Miami courthouse one day 
in the early eighties. I looked in. You are from Miami. 
Everything glowed. It was clean. The elevator was clean. I 
walked in. I said, what happened? They said, we contracted out 
the maintenance, and we got a firm to do it.
    Now if that maintenance is bad, somebody should be 
responsible. Do you have trouble firing people in FAA that 
don't conduct the maintenance?
    None of our professionals, whether they are in the FAA 
building, which again is not my favorite place to visit for 
viewing modern, well kept buildings, why can't you get a handle 
on that?
    Mr. Zaidman. Let me just say I may be a little biased being 
a Federal employee for most of my life, but I think we have the 
best workforce and I would match it_
    Mr. Mica. The maintenance workforce?
    Mr. Zaidman. I think they are terrific. I think they do a 
wonderful job. I think our challenge_
    Mr. Mica. Well, that is not the report we are hearing here.
    Mr. Zaidman. I think our challenge_
    Mr. Mica. How about repairs?
    Okay, here is Grand Rapids. Was the leak in Grand Rapids?
    Mr. Zaidman. Yes.
    Mr. Mica. What is the story with Grand Rapids?
    Now I am a former developer. Leaks in a roof will drive you 
batty. I have some that just have taken months and sometimes 
years to resolve. Is that problem here or is there a problem 
with the process of getting that repaired in a hurry?
    Mr. Zaidman. We have, like was stated, 22,000 facilities. 
We have issues with less than 1 percent of those. Grand Rapids 
falls under that 1 percent.
    Mr. Mica. I heard that it is still not fixed.
    Mr. Zaidman. It is an ongoing problem. We have just issued_
    Mr. Mica. It is one of these chronic difficulties that 
sometimes we have. Florida is terrible because we get the heat 
and the expansion. It is very difficult to solve some leaks.
    Do you keep a repair list and is it prioritized?
    Mr. Zaidman. Yes, we do.
    Mr. Mica. Do we have that? Does the Committee have a copy?
    Mr. Zaidman. We can get you one.
    Mr. Mica. Okay, I would like to see a copy because I think 
we should know.
    Do you give that to the appropriators or do you just give 
them a total dollar figure?
    Mr. Zaidman. Well, if it is in our budget, we give them the 
individual projects.
    Mr. Mica. I think it would be good for our Committee to 
look at how that is does.
    Mr. Zaidman. Be glad to do it.
    Mr. Mica. Finally, replacement of buildings, you have a 
list of those and the order in which they would be replaced. I 
would imagine that also with TRACONs and others that we are 
looking at consolidation. We would look at where it makes sense 
to replace the buildings with new facilities and new equipment 
and also getting into Next Generation equipment.
    Mr. Zaidman. That is correct, sir.
    Mr. Mica. You have that list and it is all prioritized. Do 
we have a copy? Can we get a copy?
    Mr. Johnson. You should have a copy, but we will make sure 
that you get another copy.
    Mr. Mica. I haven't seen it, but I would like to see that.
    Thank you, Mr. Chairman.
    Mr. Zaidman. Thank you.
    Mr. Costello. Thank you, Mr. Mica.
    The Chair now recognizes the gentleman from Colorado, Mr. 
Salazar.
    Mr. Salazar. Thank you, Mr. Chairman.
    Mr. Johnson, does the FAA have a master plan as to how we 
get from where we are today in updating and doing the 
maintenance on these TRACONs and whatever until we get into the 
Next Generation air system?
    Part of the problem is that we are surprised by so many 
things that happen, and many times when we ask FAA what is 
going on, we don't really get an answer. So could you maybe let 
us know if there is a master plan of some kind?
    Mr. Johnson. There is a facility master list that we have 
that, in fact, has rated all 534 facilities. There is no master 
plan per se for replacing those. What we do is up through 2014 
we have a list of, I believe, 33 replacements that we are 
working on right now.
    As we do each and every one of those facilities, as they 
come up for replacement, we look and see what makes sense for 
those facilities around the new facility, whether it makes 
sense to consolidate at that time. So it is kind of an ongoing 
process as we work down the list, what is around there, what 
would fit, what are the operational conditions that would fit 
in the facility, and we try to make good judgments about what 
would make sense to put in there.
    We are always looking ahead to the NextGen. We know we have 
several operating systems in some of the smaller facilities 
that are not going to work with NextGen. So we are looking to 
try to get as many facilities into the STARS or IIIE platforms, 
which are our newer operating systems, because we know that 
will work with NextGen.
    A lot of the time, what we are doing is looking to bring 
those facilities into the newer facilities that have the 
operating system. So it is ongoing.
    Mr. Salazar. Wouldn't it make sense to have some kind of 
master plan that all of us would be familiar with and maybe 
that you could submit to Members of Congress so that we could 
maybe make some comments?
    This picking and choosing just doesn't seem to when you get 
to different facilities when they need repairs or whatever. I 
mean it just seems to me that most business plan ahead for the 
next 10 years or next 5 years to figure out where they are 
going to be at and that way we have a better handle on what the 
costs are going to be.
    Excuse me.
    Mr. Johnson. No. It is a good question.
    Of course, out to 2014, we are pretty solid in what we are 
going to do.
    Now looking at each facility as we do them, what makes 
sense to consolidate, that is ongoing. That is what is 
contained or certainly what we would like to see in the bill, 
that we get a process that looks at, with the constituents, 
with the stakeholders, certainly with you about what makes 
sense, and I think that would fulfill that need as we move 
along.
    It would be very difficult to try to do some sort of entire 
master list because conditions change so often. Airlines change 
hubs. They move around. Things happen in the system. We have 
air space redesign. So we have to have agility and fluidity as 
we look at these plans. But we are trying to, again, as we 
build new, make smart decisions.
    Mr. Salazar. Also, could you explain a little bit about 
your objections to H.R. 2881?
    Mr. Johnson. Well, I think for us, the key is that we need 
to be able to continue to do the consolidations that we have 
already announced that we need to do. The reason for that is 
that we are already in the funding process. So any change or 
stoppage to that would mean that we would have lapsing money in 
next year.
    If we had to stop, if we had a two year hold, we would lose 
about $110 million in lapsing funds out of that. This would 
also mean that any projects around the Country would be held up 
for a couple of years.
    A very good example of how this fits together is the new 
tower going in at Dayton. If we have to put that off at Dayton, 
the current tower at Dayton sits right on the terminal 
building. Well, the airport has plans to tear that terminal 
building down and do modernizations, and they have money 
invested in that. If we can't move our tower off there because 
we can't build new, that puts their plans back two years, so 
the snowball effect.
    We have a lot of projects on the book that if we had to 
stop now in what we were doing, it would delay all of those by 
a couple of years, maybe even up into four years, because we 
would have to do replanning. We would have to make decisions on 
whether we were going to put a TRACON with them or not.
    In cases where we hadn't planned to put in a TRACON, if we 
had to go back, the siting would have to be redone, the 
planning. The entire process would have to be redone. As 
NextGen goes and for what it would do to the system, it would 
be not good.
    Mr. Salazar. Thank you, Mr. Chairman. I yield back.
    Mr. Costello. I thank the gentleman.
    Let me clarify a point, Mr. Johnson. You are not testifying 
before the Subcommittee that the reauthorization bill stops the 
process, are you?
    Mr. Johnson. It was my understanding that that was the 
language. You had expressed earlier that was not the language. 
So as long as the language that goes through does not stop us, 
then that is what we would like to see.
    Mr. Costello. For the record, let me clarify the point 
because we spent a great deal of time discussing how we should 
go forward in the reauthorization bill. It does not stop the 
process. It does not rescind the money.
    What it does is it requires the FAA to come up with a plan 
working with stakeholders, and it gives, I believe, a nine 
month period where they have to produce a plan, but it does not 
stop what is ongoing in the process.
    If we wanted to do that, we would not have Mr. Mica and Mr. 
Oberstar on the Floor of the House right now. They will be 
speaking against an amendment that would stop the consolidation 
of a particular TRACON. So it is not the intention of the 
Committee or the legislation to stop the process.
    It is to be more inclusive so that the stakeholders have a 
voice in this, all of the players including the American people 
through both public hearings and through the Federal Register, 
that they have an opportunity as well to voice their concerns 
and to have their opinions heard, but it certainly does not 
stop or rescind the money.
    At this time, the Chair recognizes the Ranking Member, Mr. 
Petri.
    Mr. Petri. Thank you very much.
    I wonder if you could discuss this issue of the adequacy of 
maintenance of facilities from the point of view of the 
traveling public. What concerns, if any, should they have?
    Is it at a point where it affects, in any way, service and 
safety and the timely operation of the system? If it is not, 
what would we need to look for as warning signs or how could it 
affect the traveling public?
    Mr. Johnson. Let me start off, and I will turn it over to 
Mr. Zaidman to finish up.
    In every case, on every day, in every situation, we will 
put safety first. So whether it is something that happens in a 
facility, if we would need to curtail operations, bring 
operations back, we are going to make sure that the system 
stays safe. Now, hopefully, anything that would happen would be 
a quick fix.
    We have examples in the past where the actions that we 
took, we thought were the best actions, and it turned out after 
reviewing that, we could have done better. We certainly 
publicly acknowledge that and we learn from those and we are 
going to get better. Hopefully, we won't have very many 
occasions to get better, but history would tell us that is 
different.
    In every case, Congressman, we are going to make sure that 
we keep the system safe. The traveling public needs to know 
every time they get on an airplane that they are going to be in 
a very, very safe system, in fact, the safest system in the 
world.
    Mr. Petri. As you know, we are very interested in the 
improvement of the system. It is called NextGen, the whole new 
technology that people are deploying around the world and we 
are hoping will be deployed in the United States.
    How does this issue of facility maintenance affect, if it 
does at all, our ability to move forward as rapidly as possible 
with the new technology and moving to the new system?
    Mr. Johnson. Well, I think the key in that is that as we 
look and as we build new facilities and as we have new 
operating systems in the field. The reason we have so many 
facilities, the large number that we have, is when we put in a 
radar system, we had to put in a TRACON. So it was one for one. 
You put in a radar. You had to have a TRACON to receive it 
because one operating system would only take one radar system
    Now with STARS and the ARTS IIIE system, we can take 16 
feeds in there. We now have the ability to do consolidations 
and co-locations. That is why we want to make sure as we build 
new facilities, and we are able as NextGen starts to come 
online. We want to have as many facilities as we can on an 
operating platform, either the STARS or the ARTS-IIIE so that 
it can hook into NextGen and we can utilize that tremendous 
technology that is coming.
    Certainly, with ADS-B, which will allow us one second 
updates and will allow us to decrease the separation standard, 
that is going to be huge for capacity. We want to make sure 
that we are ready on the facility side. We want to make sure 
that as we need to do air space redesign, that the facilities 
are ready to do that. That is a huge part of consolidation.
    It is looking at facilities where we can actually start to 
erase lines between facilities. Having one operating platform 
means that we don't necessarily have to go from five miles down 
to three miles just because we crossed an imaginary line in 
space from an en-route facility to a terminal.
    So being able to consolidate facilities, we can start to 
rub out those lines. We can move three miles all over the 
system. That is going to be huge for capacity, for reducing 
delays, for increasing the safety in the system with one second 
update. We want to have as many facilities ready for that as we 
can as we move forward.
    Mr. Petri. One last question: I know it is true in our 
family life, and I am sure it is true in business. If you are 
going to be making some changes in the next few years, the 
amount you are willing to do in serious restructuring or long 
term maintenance might go down.
    Is there an impact on maintenance of facilities from the 
prospect of this whole new system which may require a different 
array of facilities and so on? Is that affecting long term 
maintenance and so on of the facilities or not?
    Mr. Johnson. Steve can probably add to this.
    It is really almost mutually exclusive in that we can use 
our present facilities as long as they have the operating 
system that will merge with the NextGen technology. We know 
that as we more forward we are going to have this legacy system 
out there that we have to make sure stays in good working 
condition, and that is where we will be using our sustain and 
our modernization money as we forward.
    Hopefully, we will have this two-tiered effect going on 
where we will be building new. We will be bringing facilities 
together into common operating platforms, and then, again, we 
will be doing the rebuilds with the new facilities.
    Mr. Costello. The Chair thanks the Ranking Member and now 
recognizes the gentleman from New York, Mr. Hall.
    Mr. Hall. Thank you, Mr. Chairman and Mr. Ranking Member 
and thank you to both of our illustrious witnesses.
    I just wanted to make a point. First of all, if I 
understand the numbers correctly, Mr. Johnson, your concern 
about losing $110 million due to H.R. 2881 could be looked at 
in light of the fact that the FAA has chosen not to request the 
full $3 billion that was authorized and chose to instead only 
ask for $2.5 billion. There is actually $500 million available 
to help out at any time should you feel yourself $100 million 
short.
    But I wanted to ask in particular about the New York TRACON 
and Washington Dulles towers which were evacuated recently due 
to high levels of carbon monoxide. Similar incidents have taken 
place in Jacksonville, San Jose and elsewhere.
    But being from New York, I am particularly aware of and 
concerned about the fact that at the New York TRACON, the 
operations manager would not allow the controllers to leave the 
room or permit first responders to enter despite the fact that 
several controllers were exhibiting symptoms of carbon monoxide 
poisoning. Some of the controllers needed to be taken to the 
hospital for treatment.
    I guess the questions are: What are the early symptoms of 
carbon monoxide poisoning before one becomes unconscious and 
would they affect the ability to take proper actions as air 
traffic controller?
    Is this consistent with your written and oral testimony 
that worker conditions are always a major concern?
    Mr. Johnson. Sir, I don't have an answer to your first 
question on what would be the symptoms, and I wasn't there 
during the event.
    I can tell you that during a review of especially the New 
York incident, we had some real good lessons learned there. I 
think having 20-20 hindsight, we certainly would have gone back 
and let the first responders in so that they could have taken 
immediate readings in the control room. In fact, we have put 
out guidance in the system that we make sure that we do that.
    The example at Dulles, as soon as we had the gentleman that 
was using the saw down at the base of the tower, by the way, 
which was not coordinated through Tech Ops or any of our folks, 
the first thing that they did was call the first responders to 
come in and take a reading. So we were happy about that. We are 
never happy when we have an incident or an issue.
    I really don't have much to add to your statement other 
than I will certainly take your statement. There are a lot of 
different versions of the story, what happened at New York. We 
are certainly concerned any time we have an employee who think 
that they are unable to continue.
    I would certainly be happy to talk to you later about any 
or all of those issues. I would just say that we did learn from 
them, and our commitment is that we are going to try to do 
better each and every time.
    Mr. Hall. Thank you. I appreciate that.
    I am also curious if the manager's decision-making process 
in New York to keep the staff in the tower and on the job was 
influenced in any way by lack of adequate backup staffing or 
staff capacity to cope with the temporary loss of operational 
personnel.
    Mr. Johnson. I don't. Certainly, the information that we 
got in the aftermath, that did not occur. In fact, we were told 
that people were offered breaks and in fact took breaks. Again, 
not being there, I can only offer you third party information 
that I had.
    Mr. Hall. I appreciate that.
    Just one more question about an incident at Wilkes-Barre at 
the tower, Wilkes-Barre, Pennsylvania, which was reported under 
Chapter 5, Section 1, Paragraph 74 of FAA Order 6930.25 
Maintenance of Structures and Buildings concerning the 
degeneration or deterioration of the tower, wind vibrations 
causing fatigue and members' loose bolts and nuts, cracked 
members and welds, chafing of attached components, et cetera.
    You are probably familiar with this report.
    Members may deform under loads of ice and snow. Repairs 
that cannot be made immediately will be scheduled for priority 
action.
    Given this last statement in the above FAA order, can you 
explain why for over 10 years this structure at Wilkes-Barre 
has still not be corrected?
    Mr. Zaidman. I will take that one.
    We did have some safety issues at Wilkes-Barre. We fixed 
them some 18 months ago. It is not a permanent solution. One of 
the challenges that we have is finding new real estate to 
relocate the tower on. We need to rebuild it and find some 
place to put it on.
    So, for the meantime, we are making repairs. We have made 
them. We are monitoring it, and are looking for real estate to 
relocate and build a new one.
    Mr. Hall. Thank you, both of you. I just once again remind 
you that there is money available from Congress to deal with 
these things in a more timely fashion.
    I yield back, Mr. Chairman. Thank you.
    Mr. Costello. The Chair thanks the gentleman and recognizes 
the gentleman from North Carolina, Mr. Hayes.
    Mr. Hayes. Thank you, Mr. Chairman.
    Gentlemen, one quick question, what independence and 
autonomy does an individual supervisor have at a facility when 
he has got a maintenance problem?
    How much independence does he have to advocate to his upper 
management, we have a problem, we need to get it fixed?
    Mr. Johnson. Well, I know on the Operations side, they 
would immediately get in touch with the Tech Ops folks, report 
the problem and hopefully, typically, in a facility, get very 
quick results.
    I would just like to add to what Mr. Zaidman said earlier. 
From a technician side, I think we have one of the finest 
workforces on the Tech Ops side that I have ever seen, 
certainly demonstrating almost heroic efforts and achievements 
after Katrina to put the system back together.
    Mr. Zaidman. I will just add to that. What we have done is 
we decentralized our internal budget. We don't have a 
bureaucratic chain. If essential repairs are needed, it keeps 
on going up to my level. We have subdivided into districts. We 
have 46 districts.
    We give people the money, and we say, if you have a 
priority, you fix it. You don't have to come to Washington to 
get permission.
    Mr. Hayes. I appreciate that.
    I think it is obvious to everyone the high level of 
interest in this Committee in safe, reliable working conditions 
and some of these issues. If you stop the leak, then the 
maintenance staff can take over before the tech staff has to 
come in.
    Thank you, Mr. Chairman.
    Mr. Costello. The Chair now recognizes the gentleman from 
North Carolina, Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman.
    Good to have you all with us.
    Mr. Chairman and Ranking Member, I was talking to a couple 
constituents back in my district recently, and one constituent 
admitted he had never flown. He said, I have great fear of 
flying. The second constituent admitted he flies frequently. He 
says, my main regret is having to go through an airport to get 
on the plane.
    Airports are becoming more and more unpopular, and I am not 
blaming you all for that. I think it is just the era in which 
we live.
    I think you may have touched on this in response to Mr. 
Petri's question, Mr. Johnson, but I assume that special 
consideration is extended for maintenance and/or improvements 
which are deemed necessary from a flight safety perspective. Is 
that correct?
    Mr. Johnson. In every instance, certainly if it has a 
safety aspect to it, it rises to the top of the list. Yes, sir.
    Mr. Coble. I am encouraged to hear that because I think 
safety should never be compromised.
    Let me ask you this. Regarding sponsor/airport-owned 
facilities staffed with FAA controllers, how do you go about 
addressing the facility maintenance and construction under this 
scenario?
    I guess my specific question is who is responsible for 
funding maintenance and construction?
    Mr. Zaidman. Within FAA, we have three directorates, if you 
will. One is Mr. Johnson's, that is responsible for coming up 
with the budget requirements and the architectural studies for 
terminal facilities.
    We have a different vice president, Mr. Day, who does the 
20 en-route air traffic control centers, and I do the remaining 
work for that. Within my area, I am responsible for the 
construction of facilities.
    The other vice presidents that I alluded to are responsible 
for setting the priorities, the requirements, and getting the 
budget to do that.
    Mr. Coble. I got you.
    Mr. Johnson, you touched on consolidation earlier. Let me 
put a three-pronged question to you.
    Does the FAA terminate employees as a result of 
consolidation, a; b, how does the Agency look after its 
employees as the Agency moves forward toward efficient facility 
management; and finally, if you continue to consolidate will 
some employees be terminated?
    Mr. Johnson. Thank you.
    No, on the termination question. We need every air traffic 
controller that we have in the system right now, so we would 
not do anything that knowingly would cause us to lose air 
traffic controllers.
    When we do consolidations, we give longtime lead notice. 
There is coordination with the union on what is going to 
happen. We pay full PCS moves, which is permanent change of 
station, as you know, when we move the employees.
    Usually, during the lead time, some of the employees may 
bid on other positions to go to other places. Typically, on 
consolidations, if we are just moving the TRACON, the tower 
facility will stay. So some of the employees may decide to 
remain at the tower and work in the tower only. Some of the 
employees may decide to go to the consolidated facility and 
work in the TRACON.
    Mr. Coble. I got you.
    Mr. Johnson. There is no difference. In fact, we are 
actually going to add controllers to the system from where we 
are now.
    Mr. Coble. I thank you, sir.
    Mr. Chairman, I want you to take note that I am yielding 
back my time before the red light appears.
    Mr. Costello. The Chair thanks the gentleman and would ask 
other Members to consider doing the same.
    The Chair now recognizes the gentleman from Tennessee, Mr. 
Cohen.
    Mr. Cohen. Thank you, Mr. Chairman.
    Mr. Johnson, I don't know if it would be you or your fellow 
there, but I believe it would be you.
    The numbers reviewed by our T&I Committee staff show the 
backlog of building maintenance repairs somewhere between 250 
and 350 million dollars. FAA appears to be spending less than 
$60 million making those repairs. Why have we not requested or 
you not requested more money from Congress to make those 
necessary repairs?
    Mr. Zaidman. Yes, thank you for the question.
    Well, back to the budget, we request what we need in terms 
of the F&E program. That was stated before. I am sure you aware 
that we have requirements on the Operations side as well, and 
so what we have to do is balance our day to day Operations 
budget, which does include the day to day maintenance and 
repair. It doesn't come out of the F&E account, which handles 
major capital construction projects.
    So we look at both of these and try to balance the need for 
ongoing maintenance and emergency repairs with the need for new 
construction of major facilities, which comes out of a 
different account. We put that together and go back to the 
Congress with our request which includes both the Operations 
side and the capital side.
    Then, obviously, the third part of the budget is the grants 
program which is the Airport Improvement Development program, 
which also comes out of our budget.
    Mr. Cohen. I understand that, sir. Do you think that 50 to 
60 million dollars is inadequate to maintain the facilities 
that we have?
    Mr. Zaidman. No. No. We need. Obviously, with 22,000 
structures and buildings, we can only touch a portion of those 
each year, and we prioritize them.
    Mr. Cohen. Then why did you not request more monies from 
this Congress in the past?
    Mr. Zaidman. Because we requested what we needed in the 
Operations budget, which handles the critical repair and 
infrastructure repair. That, in turn, competes, if you will, 
against the capital budget. So we are able to come up with a 
total budget amount and present it to you.
    Mr. Cohen. Could you not have requested more?
    I mean at Christmas, I make a list. I used to make a list 
as a kid. I didn't stop with just a bicycle. I went for the 
basketball and the football.
    Mr. Zaidman. Well, internally, we do have our 
deliberations, and that is compared to the rest of the 
Department's needs and the Country's needs. I am sure you are 
more aware of the budget process than we are.
    Mr. Cohen. Do you have any idea how much money we spend in 
Iraq for these types of facilities?
    Mr. Zaidman. Well, I have read in the press what we spend.
    Mr. Cohen. Well, I haven't. Would you help me?
    Mr. Zaidman. I couldn't tell you offhand.
    Mr. Cohen. Do you have a ballpark figure?
    Mr. Zaidman. I focus on aviation.
    Mr. Cohen. But you have read the paper, so help me with 
what you have read.
    Mr. Zaidman. No, I couldn't cite a number today.
    Mr. Cohen. You don't remember.
    Mr. Zaidman. Correct.
    Mr. Cohen. Do you work at the Justice Department? They 
don't remember anything either.
    Mr. Johnson, do you remember or have any idea?
    Mr. Johnson. Restate the question again?
    Mr. Cohen. How much money we are spending as a Government 
in Iraq and Afghanistan, for that matter, on their aviation.
    Mr. Johnson. I do not know what the aviation figure that we 
are spending in Iraq. I know we support them with people that 
we send over there, but I don't know what the infrastructure 
costs?
    Mr. Cohen. How about their infrastructure? Do you think we 
are just operating on Saddam's infrastructure?
    Mr. Johnson. No.
    Mr. Cohen. We destroyed it.
    Mr. Johnson. Right. I think a lot of the radars that we are 
setting up there are radars that we have sent over.
    Mr. Cohen. Can you get us that information?
    Mr. Johnson. I certainly can try, sir.
    Mr. Cohen. It is just, I think, another example of where we 
have inadequate monies here for our security and yet we are 
supplying it over there.
    Let me ask you this. Do you all have any knowledge of what 
the situation is with the Memphis air traffic control, what 
repairs need to be made, what problems there might be?
    Mr. Johnson. I don't. I don't, not in Memphis.
    Mr. Cohen. Are there no problems in Memphis?
    Mr. Johnson. That would probably be on the unsafe side to 
say there are no problems. I am just not sure or aware of any.
    Mr. Cohen. Mr. Zaidman?
    Mr. Zaidman. No, not sitting here offhand. It hasn't come 
to my attention.
    Mr. Cohen. So Memphis is in great shape.
    Mr. Zaidman. Well, I am not saying that, but we could 
certainly look at it. In terms of the priorities that we see on 
a day to day basis, Memphis is in pretty good shape.
    Mr. Cohen. There was a report of a near crash the other 
day. Are you aware of that?
    Mr. Johnson. Not at Memphis, I am not. I am sorry.
    Mr. Cohen. No, it wasn't in Memphis. It was elsewhere. I 
think what I read--I did read that newspaper report--was that 
it might have had something to do with maybe inadequate 
training of the controllers or the inexperience of the 
controllers. Do you remember?
    Mr. Johnson. I don't. I am sorry.
    Mr. Cohen. You are not aware of that.
    Mr. Johnson. I don't know.
    Mr. Cohen. Thank you, Mr. Chairman. I yield my time.
    Mr. Costello. I thank the gentleman.
    Just a quick question and point. The question is you, Mr. 
Johnson, Mr. Zaidman, you really do not have the final say-so 
in what the level of your budget is for the F&E account, do 
you?
    Mr. Zaidman. No, but we input our priorities, and that is 
correct.
    Mr. Costello. I didn't understand. Can you pull the 
microphone closer?
    Mr. Zaidman. I am sorry. We don't have the final say. We 
are part of the process but not the final decision-maker on 
that.
    Mr. Costello. As part of the process, do you request a 
specific amount for the F&E account?
    Mr. Zaidman. We request it by project. So when you add it 
up, it does come to a specific amount.
    Mr. Costello. Do you recall for the current fiscal year 
what amount you requested within the Agency?
    Mr. Zaidman. No, I don't recall.
    Mr. Costello. Do you have any idea? Do you know what you 
requested or spent the year before, the prior fiscal year?
    Mr. Zaidman. Well, the capital account was about $2.5 
billion. That has been consistent over the past several years.
    Mr. Costello. Do you recall if you ever requested in the 
past 3 years over $2.5 billion?
    Mr. Zaidman. Well, in our total deliberations, and we rank 
the projects, they come above $2.5 billion. So yes, in terms of 
if we were able to do everything that our staffs ask us to do, 
it would exceed $2.5 billion. I don't want to call it a wish 
list but a list of potential projects.
    Mr. Costello. You are telling this Subcommittee that 
internally you received every dollar that you requested from 
within the Agency?
    In other words, you put a request in. This is what we are 
going to need to do everyday maintenance and repair of the 
TRACONs and the air traffic control towers. We need $2.5 
billion and no more, and you got every dollar you requested.
    Mr. Zaidman. We don't get every dollar we request 
internally when we add it up. It would go far beyond.
    Mr. Costello. Mr. Zaidman, that is my whole point.
    Mr. Zaidman. Okay.
    Mr. Costello. I mean the point is whether you requested 
more. This Congress authorized for the last 3 years $3 billion 
each year. The Agency requested $2.5 billion, $500 million less 
than the Congress authorized.
    My question to you is, and I know you do not make the final 
decisions, so we are not here to beat up on you. What we are 
here to point out is that there are needs in the field that are 
not being met.
    My question to you is this. You didn't make the final 
decision, but did you request only $2.5 billion or did you 
request more and somewhere along the line in the Agency or OMB 
or in the White House, they ended up on a figure of 2.5 as 
opposed to what you requested?
    Mr. Zaidman. Well, the Agency requested 2.5, and internally 
it would be higher if we had an unbounded budget process.
    Mr. Costello. I know it would be higher. But my question is 
did you request more than the $2.5 billion?
    Mr. Zaidman. Well, not me, personally. Not me, personally.
    Mr. Costello. Did your Department request it?
    Mr. Zaidman. No.
    Mr. Costello. Let us quit dancing around the issue and 
answer the question.
    Mr. Zaidman. I am trying. Internally, we have a committee 
which spans our Air Traffic Organization. The total 
requirements quoted will exceed $2.5 billion to do all the 
construction and capital projects that we think we need to do.
    Mr. Costello. So, within the Agency, you made an assessment 
and said that we need more than $2.5 billion to meet our needs, 
to address the needs. In the end, you received $2.5 billion.
    Mr. Zaidman. At the staff level, the assessment was higher. 
But let me, if I can, Mr. Chairman. We also have an Operations 
budget. The Operations budget is the budget that addresses the 
maintenance and repair of the system.
    Mr. Costello. I understand.
    Mr. Zaidman. In that, we have adequate money.
    Mr. Costello. The Chair now recognizes at one time a former 
Chairman of this Subcommittee, Mr. Duncan from Tennessee.
    Mr. Duncan. Well, thank you, Mr. Chairman. Thank you for 
the great job you are doing as Chairman of this Subcommittee.
    Gentlemen, the testimony you have given so far and the 
answers have, I think, been very informative and helpful. There 
has not been anything yet that has really surprised me or 
shocked me, but there is one thing that I am very curious 
about.
    Every time we have a hearing, we are given very formal 
briefing papers about the hearing, and these are, I am told, 
joint efforts by the staffs on both sides. I am sure that most 
of this information in here originally came from the FAA, but 
it says the thing I am really curious about. It says the FAA 
manages over 22,000 facilities.
    You have an Agency with roughly 45,000 employees. I have 
been in many FAA facilities around the Country or quite a few 
anyway, and there are always many employees there. Now, surely 
this is wrong or there is a few thousand FAA facilities with 
just one employee or maybe thousands of FAA facilities with no 
employees.
    I am just wondering. Surely, you can tell me this is wrong.
    Mr. Zaidman. Well, let me explain what those numbers are.
    Mr. Duncan. Explain it to me.
    Mr. Zaidman. We have about 420, 450 facilities that are 
manned facilities, occupied by air traffic controllers.
    We have structures that house electronics that are 
unmanned. These put out electronic signals in space for 
navigation, for instance, and they are counted as part of those 
22,000.
    We have radio towers that permit controllers to talk to 
airplanes and vice versa. That is counted as one of these 
22,000.
    Mr. Duncan. I see. So most of those 22,000 are unmanned 
facilities.
    Mr. Zaidman. That is correct, sir.
    Mr. Duncan. Have you done any estimates of what the costs 
of maintaining all these facilities as opposed to consolidation 
of some of these facilities?
    Have there been any preliminary studies or estimates made? 
Do we have any rough guess?
    Mr. Johnson. We can tell you that on average when we build 
a new facility, which could include consolidation, the average 
cost is around $30 million to build a new facility.
    Now we have a high end on that, which is that we will spend 
$90 million for a facility that may be constrained because of 
the siting. The new Phoenix tower TRACON was one of those. 
Because the siting was constrained where it was, we paid quite 
a bit of extra money for blast walls, and the cost of steel 
went up. The cost of concrete went up.
    So even though we try to set that level at what we think we 
are going to spend for a facility, we have noticed over the 
last few years that our costs are rising by about 30 percent.
    From a cost of facility, from a cost of consolidation, I 
don't have a figure for that.
    Mr. Duncan. Do you have any idea how many new facilities 
you need at this time?
    Mr. Johnson. Well, we have 33 on the list. We have around 
78 facilities that are less than 10 years old that we have 
built, that are wonderful facilities that are out there. They 
get around 10 years old, and of course they are starting to 
need maintenance and upkeep.
    Again, we have 33. Some of those are in various stages of 
completion in the system.
    Then the list, the master list where we look at the needs 
of the facilities and when we would replace them on a priority 
order, all 524 facilities are on that list. That is reworked 
periodically when we get new information.
    Mr. Duncan. You don't really have any estimate at this 
point about how much you could save by consolidation?
    Mr. Johnson. Not from a total figure, no, we don't.
    That kind of gets rolled up. Again, as we look at new 
builds and we look at what we are going to bring in, then we 
certainly have a figure for what it didn't cost us, cost 
savings, not to, say, build a TRACON onto a facility, usually 
four to five million dollars just for the structure itself. 
Then you start adding the electronics and the other gear, and 
the cost certainly climbs.
    Yes, we could put very specific figures to that. I couldn't 
give you an exact figure because it depends on the size of the 
facility.
    Mr. Duncan. One last thing I am a little curious about 
since Mr. Coble asked about would any employees be terminated 
and earlier Mr. Mica talked or mentioned about how it is almost 
impossible to terminate an employee. Do you have a rough guess 
as to how many FAA employees are terminated or fired each year?
    Mr. Johnson. I would say it is a very small number. I don't 
have an exact figure, but I would say it is a very small 
number.
    Mr. Duncan. All right. Thank you very much.
    Mr. Costello. The Chair thanks the gentleman and now 
recognizes the gentleman from Missouri, Mr. Graves.
    Mr. Graves. Thank you, Mr. Chairman. I will be brief. I 
apologize for being late. I had a meeting with on CAFTA.
    But I am very curious. One of the facilities, one of the 
tower facilities in question with the mold issue is the Kansas 
City tower which is actually a fairly new tower. We do have 
some mold issues there.
    I sent a letter to Administrator Blakey with Senator Bond 
about a month ago and hadn't received a response yet. I was 
just curious if that issue is being addressed and hopefully it 
is being addressed quickly. I would like to see that cleaned 
up. I visited the tower about three weeks ago and took a look 
at the problem, and it is definitely there.
    Mr. Zaidman. Yes, sir, it is there. We just issued a 
contract to do an engineering analysis to determine what we 
need to fix. We anticipate issuing a contract award to clean up 
the mold and make repairs this September.
    Mr. Graves. I would like if you would keep me informed of 
that. The biggest thing is I want to make sure it is being 
addressed and being addressed quickly, and if you would please 
keep my office in the loop on how that is progressing and what 
is happening.
    Mr. Zaidman. Be happy to. It is an issue for us.
    Mr. Graves. Thanks, Mr. Chairman.
    Mr. Costello. The Chair thanks the gentleman.
    Let me at this time thank you, Mr. Johnson and Mr. Zaidman, 
for your testimony. At this point, we will dismiss you.
    Again thank you for being here this morning and presenting 
your testimony. We will have our staff follow up with the 
requests that Mr. Mica and others have made. I know that we 
have at least one list in our possession, and we may need to 
get another from you, but we thank you for being here today and 
for presenting your testimony.
    We would ask the second panel, as Mr. Johnson and Mr. 
Zaidman leave the witness table, if you will come forward, 
please.
    I will go ahead and make introductions as you are coming 
forward. In the second panel, we will hear from Mr. Patrick 
Forrey, the President of the National Air Traffic Controllers 
Association; Ms. Patricia Gilbert, Chair of the National 
Legislative Committee for the National Air Traffic Controllers 
Association; and Mr. Tom Brantley, President of the 
Professional Airways Services Specialists, if you will all 
three be seated.
    Mr. Forrey, you are recognized under the five minute rule 
if you are prepared to find the right page and take your time. 
Whenever you are ready, you are recognized under the five 
minute rule.

 TESTIMONY OF PATRICK FORREY, PRESIDENT, NATIONAL AIR TRAFFIC 
  CONTROLLERS ASSOCIATION; PATRICIA GILBERT, CHAIR, NATIONAL 
    LEGISLATIVE COMMITTEE, NATIONAL AIR TRAFFIC CONTROLLERS 
  ASSOCIATION; TOM BRANTLEY, PRESIDENT, PROFESSIONAL AIRWAYS 
                 SERVICES SPECIALISTS, AFL-CIO

    Mr. Forrey. Mr. Chairman, thank you again for the 
opportunity to come before your Committee.
    My name is Patrick Forrey. I am the President of the 
National Air Traffic Controllers Association.
    NATCA has been fortunate enough to enjoy a good working 
relationship with the Members of this Committee. As many of you 
know, our organization is the exclusive representative of over 
14,000 aviation safety-related professionals.
    Mr. Chairman, Ranking Member Petri, I would like to begin 
by expressing our sincere appreciation to both of you and the 
Members of this Committee for your interest in the conditions 
of the FAA's air traffic control facilities around the Country. 
We are particularly grateful for your willingness to learn 
about the experience of the employees who are working for these 
facilities. NATCA members can help to provide unique 
perspective on the state of the towers, centers and TRACONs 
nationwide.
    NATCA recently conducted a field survey of over 200 
facilities. The survey identified a wide variety of problems 
and needs. Conversely, there are also facilities that did not 
exhibit maintenance challenges. My colleague, Patricia Gilbert, 
who is sitting next to me on my left, will present on that 
survey's findings after my testimony.
    The air traffic control system has made vast strides in 
safety and technology in its short existence. Unfortunately, 
many of the aging air traffic control facilities that house the 
systems and our controller workforce have gone unchanged or 
fallen into disrepair. More importantly, the facility 
maintenance has not kept pace with the weakening controllers' 
ability to operate the largest and most congested air space 
system in the world.
    NATCA believe that with proper maintenance, many of these 
facilities can and should continue to be viable sites for air 
traffic control systems regardless of their age. In that 
respect, we strongly support the enactment of H.R. 2881, the 
FAA Reauthorization Act of 2007, which authorizes critically 
needed funding levels that will enable the FAA to make needed 
repairs and replacement of existing facilities and equipment.
    We commend you, Mr. Chairman, and the Members of your 
Committee for that effort.
    Simply stated, the maintenance and preservation of its 
aging air traffic control facilities has not been a priority 
for the FAA. On many occasions, we have been found FAA 
employees have been forced to work in conditions that are 
unsafe which, in turn, can create unsafe conditions for the 
flying public.
    But just as concerning to us has been the repeated 
mishandling of unhealthy situations by FAA management 
officials. While buildings do get old and sometimes accidents 
happen involving harmful materials and noxious fumes, and by 
the way mostly by contractors, quick and effective management 
actions can mitigate the short and long term damage.
    I have personally brought this to the attention of the FAA 
Administrator in the wake of many controllers still suffering 
debilitating serious health problems after exposure to harmful 
conditions. It is important for any employer to have the trust 
of its employees that they will have a safe working 
environment.
    Exposure to these harmful contaminants has resulted in 
unsafe working conditions in many facilities across the Nation. 
In the Detroit tower, for instance, over 6,000 feet of mold 
contamination, an identical tower to Kansas City, by the way, 
was contaminated with material identified as black mold or 
stachybotrys.
    Despite the obvious confirmation of a hazardous situation, 
the Agency consistently marginalized NATCA's concerns and 
suggestions and would not work collaboratively to solve the 
problem. While the Agency has put resources into remediation of 
the mold problem discovered during a safety inspection in 2004, 
the problem still exists today.
    NATCA has also discovered that nearly half of all 
facilities have some sort of external leaks. Many of these 
leaks are into equipment rooms that jeopardize vital equipment. 
For example, controllers in the Atlanta ARTCC, which is a 
center down in Atlanta, have to guide aircraft while using an 
umbrella to protect them from water cascading into the roof on 
top of the equipment.
    As seen in the video clip earlier at the Grand Rapids 
facility, there really are no words necessary to express what 
is going on there.
    Additionally, significant chemical exposure incidents have 
results in respiratory injury. Three incidents recently at 
major facilities involving failed maintenance projects resulted 
in over a dozen employees being severely sickened.
    On February 28th, a contractor-botched roofing project and 
failed cleanup efforts at Jacksonville TRACON resulted in 
employees having to breath toxic odors. To date, five 
controllers are still out of work and being treated by the Mayo 
Clinic.
    In April, scheduled maintenance at an engine generator in 
the New York TRACON sent diesel exhaust fumes into the 
ventilation system of the building, resulting in a slow leak of 
deadly carbon monoxide gas. Six controllers were affected and 
showed the familiar signs of carbon monoxide poisoning, yet the 
facility's operations manager refused to allow the fire 
department to respond and forced the controllers to remain on 
the job.
    On May 9th at the Dulles air traffic control tower, the FAA 
delayed evacuation of controllers from the tower for 45 minutes 
after noxious fumes from an airport construction project were 
circulated in the tower's ventilation system, sending 5 
employees to the hospital.
    Here is the key in all these instances. The Agency is slow 
to respond to the employees' health concerns, and the Agency 
denied the attempts to work with the FAA to correct the 
problem.
    Talking about facility consolidations, some have made the 
argument that the best way to deal with aging facilities is to 
consolidate them. We disagree. Our position is that the FAA 
must first fulfill its 30 year obligation to meet a specific 
operational need as well as cost reduction before consolidation 
can be considered. Safety of the system, modernization, service 
to the users, the impact on the employees are all 
considerations that need to be considered above and beyond just 
a dollar value that may be saved in consolidations.
    With funding comes responsibility and oversight of the 
proper accounting of taxpayer dollars. NATCA believes that the 
FAA must be held accountable to make better maintenance 
investment of ATC facilities.
    Just this February, the U.S. Department of Transportation 
Inspector General issued an audit announcing in which the FAA 
could not account for $4.7 billion of their September 30th, 
2006 end of year funds regarding for property, plant and 
equipment line items. We find that quite interesting since up 
to this date, the Agency does not spend the amount of funding 
that they have been given, and yet they can't account for 4.7 
billion over the last several years.
    In conclusion, we believe that the FAA must be held 
accountable to make better maintenance investments in ATC 
facilities. These are taxpayer-financed, and the taxpayers' 
investment must be protected.
    We support enactment of 2881, the FAA Reauthorization Act 
of 2007, which authorizes critically needed funding levels for 
the F&E accounts and will enable the FAA to make needed repairs 
and replacements of existing facilities and equipment.
    NATCA strongly supports participation in collaborative 
process with the FAA and the Agency's air traffic control 
programs and initiatives. NATCA also calls on the FAA to 
improve its procedures for dealing with hazardous workplace 
conditions and install carbon monoxide detectors and other 
appropriate monitors in all occupied structures.
    Thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks you, Mr. Forrey, and 
recognizes Ms. Gilbert.
    Ms. Gilbert. Thank you, Chairman Costello and thank you, 
Chairman Oberstar and Ranking Member Petri for letting me 
appear before you today.
    My name is Patricia Gilbert. I am an air traffic controller 
at Houston Air Route Traffic Control Center and have been there 
for 19 years. As well as being a full time air traffic 
controller, I serve as NATCA's National Chairperson to the 
Legislative Committee.
    I would like to begin by expressing our deep appreciation 
for your interest in the condition of FAA facilities. The 
condition of the facilities, air traffic facilities, are a 
great concern to NATCA and its members especially in light of 
incidents that have jeopardized the employees' ability to 
perform their job safely.
    For example, unacceptable working conditions came to light 
when controllers became ill after noxious fumes entered work 
areas at a number of FAA facilities. Mr. Forrey touched on how 
the controllers in New York TRACON and Washington Dulles tower 
were recently taken ill when suddenly exposed to carbon 
monoxide. Other employees at facilities in Jacksonville, 
Florida, San Jose, California and Eugene, Oregon, faced a 
similar scenario when unidentified fumes entered their work 
areas as well. In each of these instances, the employees felt 
the Agency response did not correspond with their concerns.
    The FAA has never, to our knowledge until we heard Mr. 
Johnson's testimony, compiled an overall list of environmental, 
equipment, health or safety issues for its 314, and these are 
FAA air traffic facilities. His testimony said they talked to 
and got information from 89.
    Based on that lack of available data and the overwhelming 
volume of specific complaints from individual facilities, NATCA 
decided earlier this year to request individual facility 
reports from its field representatives for compiling into a 
national database. The survey gathered reports from air traffic 
control towers, FAA en-route traffic control centers and FAA 
terminal radar approach controls or TRACONs.
    When reviewing the results of our survey, we looked for any 
issues that potentially presented a safety concern. While 
information for some facilities was not received, over 220 
facilities provided data in varying detail. This nationwide 
field survey identified a wide variety of problems and needs.
    In reviewing the research, we looked for trends as opposed 
to individual and routine maintenance issues. In this regard, 
the most commonly reported problems were mold and other harmful 
contaminants, external links and building ventilation and 
temperature control.
    The FAA's disregard of facility maintenance has resulted in 
harmful contaminants in many of its facilities. Exposures to 
these dangerous contaminants has resulted in unsafe worker 
conditions at facilities across the Nation.
    In the Detroit air traffic control tower, two years ago, 
black toxic mold as well as several other toxic molds were 
found. Chicago O'Hare air traffic control tower had fire 
suppression pipes break and flood various parts of the facility 
in February, and initial NATCA test results show possible mold.
    Kansas City tower recently identified mold in various 
rooms. Contaminated insulation was found below the raised 
flooring which is located directly in front of the air supply 
discharge.
    It is my understanding that FAA's approach to mold 
remediation is exactly the reverse of accepted practice. Their 
current intent is to remove and to treat mold first, then only 
at a later date, address the causes of the mold. Grand Rapids 
has had several environmental issues in the last 10 years 
relating to bacteria contamination, water leaks and possible 
mold contamination.
    The survey also revealed that air traffic control towers 
and radar rooms across the Nation have serious external leaks. 
Many of these leaks are into equipment rooms and jeopardize 
expensive and vital safety equipment. The Chicago Air Route 
Traffic Control Center, located in Aurora, had major leaks over 
the back wall of the building and in the basement. The extent 
of possible mold contamination is unknown at this point.
    Our research has found that in nearly every facility 
survey, the operators and occupants report poor heating and air 
conditioning and air quality. In several air traffic control 
towers, the poor environmental conditions represent potentially 
serious situations not just to the employees but to the flying 
public.
    A notable example is the recurrence of condensation 
accumulating on the window panes of tower cabs in San Juan in 
South Florida causing reducing visibility which in some cases 
can be extreme and unsafe. This picture on the monitor shows 
that due to condensation the San Juan tower cab windows, air 
traffic controllers are sometimes blind without the ability to 
scan the runways or taxiways. In this picture, you can barely 
make out an Airbus crossing in front of the tower.
    The following are some quick facts and statistics about the 
survey. Nearly 100 percent of the facilities responding 
reported declining environmental equipment, safety and/or 
health issues. Most facilities reported overall conditions of 
their facilities as merely fair with 62 reporting their 
condition as poor and an additional 18 reporting their 
condition as dangerous.
    Forty facilities report significant mold issues. Many are 
dealing with toxic mold and its associated health risk with the 
most extreme cases reporting employees already suffering long 
term and permanent injuries from exposure.
    Asbestos in buildings, other abatement issues and dangerous 
releases are still a serious concern at over 30 facilities. New 
York Center, Atlanta Center and Fargo, South Dakota tower, 
among others, are still awaiting years-long promised asbestos 
abatement.
    Seventy-five facilities report water leaks of which at 
least a half a dozen report frequent leaks directly on 
controllers or equipment. Adding to this are serious issues at 
many facilities with fumes leaking into the work areas from jet 
fuel, jet exhaust, insecticides, solvents and generator or 
other engine exhaust. Several facilities report employees still 
unable to return to work due to exposure side effects.
    Over 100 facilities report significant issues with heating 
and cooling, resulting in extreme seasonal temperature 
variations and inconsistent temperatures from area to area. 
Even brand new facilities such as Addison tower in Dallas, 
Texas, which was commissioned in 2006, report temperature 
variations with lows in the fifties and highs over a hundred 
degrees in the operating quarters, resulting in obvious human 
discomfort as well as equipment risk.
    Of these facilities, over 50 report chronic air quality 
issues including cold and flu-like symptoms, respiratory and 
breathing problems, headaches and controllers' routinely 
sickened from lack of ventilation.
    Northern California TRACON has recurring issues with snakes 
in the building during the summer and fall months while St. 
Louis tower deals with the challenge of bats. Both are 
relatively new facilities. Twenty-eight other facilities report 
invasive infestation issues with rats, mice, wasps, termites, 
ants and flies.
    Other issues of concern at numerous facilities including 
poorly placed equipment obstructing the operation or obscuring 
visibility, windows in tower cabs routinely fogging up on the 
inside as you saw with the San Juan tower cab, lead-heavy or 
malodorous or contaminated drinking water, excessive dust or 
other surface contaminants.
    We believe that it is clear that the FAA must be held 
accountable to make better maintenance investments in its air 
traffic control facilities. These are taxpayer-financed, and 
taxpayers' investments must be protected.
    Thank you, Chairman Oberstar, Chairman Costello and Ranking 
Member Petri.
    Mr. Costello. We thank you, Ms. Gilbert.
    The Chair now recognizes Mr. Brantley.
    Mr. Brantley. Thank you. Chairman Costello, Congressman 
Petri and Chairman Oberstar and Members of the Subcommittee, 
thank you for holding this important hearing today and thank 
you for inviting PASS to testify.
    The Professional Airways Systems Specialists represent more 
than 11,000 FAA employees including those in our Air Traffic 
Organization Technical Operations Unit who install, maintain 
and certify the radar, navigation and communication systems 
making up the National Airspace System.
    For too many years, the FAA has neglected its 
infrastructure, specifically the buildings and facilities that 
accommodate NAS equipment and the employees who operate and 
maintain those systems. The images displayed on the screen 
reveal a disturbing pattern of deteriorating buildings, leaking 
roofs and unstable infrastructure that places employees and 
equipment at risk.
    Technicians in the field have reported many instances in 
which employees fell through rotting floors or fell off 
unstable platforms. In addition, exposure to mold and asbestos 
is a serious issue at numerous facilities that has the 
potential to impact the health of employees for years to come. 
I believe that the examples provided by PASS and NATCA in our 
written testimonies along with the pictures being displayed 
clearly demonstrate the severity and scope of the problem.
    The FAA spent a lot of time over the last several years 
talking about how it is becoming more businesslike and how it 
carefully weighs its decisions regarding how it accomplishes 
its mission like a business. According to FAA leadership, 
modernization and operation of the NAS are now being pursued in 
the same manner as any successful business in the Country would 
follow. That may play well as a sound bite, but it clearly does 
not apply to the FAA's management of its infrastructure.
    Would a successful business allow critical buildings and 
facilities to fall into such disrepair that they are not only a 
threat to the equipment they house and the users who rely on 
that equipment but also a very real threat to the safety of the 
employees who operate and maintain them? No.
    Would a successful business refuse to ask for the resources 
necessary to repair or replace these critical facilities? 
Again, the answer is no.
    Why then would FAA leadership allow these buildings and 
facilities to deteriorate so badly?
    Why would the FAA have a plan for completing inspections at 
its manned facilities that will take another 25 years to 
complete?
    Why would the FAA continue with a modernization plan that 
often includes placing new systems and equipment into 
facilities that are unacceptable for those systems and unsafe 
for the employees who use and maintain them?
    No successful business could be operated in such a 
hazardous way nor would a successful business allow facilities 
considered vital to its mission to exist in such conditions. 
However, I can assure you, as can our technicians in the field, 
that these facilities are critical to safe and efficient air 
travel. The FAA cannot continue to deny the importance of these 
facilities and employees by ignoring the infrastructure 
problems plaguing the NAS.
    The time for rhetoric from FAA leaders has passed. It is 
time for someone, anyone in FAA leadership to step up and deal 
with this crisis before it is too late.
    We have all seen and heard about the recent steam line 
explosion in New York City. I believe the similarities with the 
FAA's infrastructure are striking and frightening. They are 
both considered part of the infrastructure and therefore not 
visible in a public way. When things are not clearly visible to 
the public, there is a reluctance to focus energy or resources 
on them, but following that logic will always lead to disaster, 
as we recently saw in New York.
    I believe the FAA must take the following actions to avoid 
the same type of crippling disaster: The FAA should immediately 
analyze all currently available information regarding its most 
critical infrastructure problems and request the resources to 
fix them.
    The FAA must complete inspections of its manned and 
unmanned facilities within two years. The information gathered 
from these inspections must be factored into the Agency's 
budgeting from now on. It is clear that correcting problems in 
the early stage is more effective and much less costly than 
waiting until a complete failure happens.
    Last, but certainly not least, the FAA must begin to listen 
to the people who are the true experts on the state of the NAS 
and its infrastructure, the employees who operate and maintain 
it.
    Thank you and I look forward to any questions you may have.
    Mr. Costello. The Chair thanks you, Mr. Brantley.
    The Chair now recognizes the distinguished Chairman of the 
Full Committee, Chairman Oberstar.
    Mr. Oberstar. Thank you very much, Mr. Chairman, and thank 
you and Mr. Petri for your good work in launching this hearing. 
Our Committee investigative staff were digging into the issues.
    I regret not being here at the outset, but I was on the 
Floor, defending Lake Michigan against predations of a similar 
nature by British Petroleum planning to dump toxics into Lake 
Michigan.
    To the rain at Grand Rapids, Michigan, the black mold in 
the Western Pacific tower, mold at Dallas-Fort Worth, O'Hare, 
Kansas City, Detroit, you can add snow in the tower at Duluth, 
Minnesota, snow and flies in the winter. The air traffic 
controllers plugged the holes in the windows to keep the snow 
out, but then they were batting flies that came out of the 
woodwork in the middle of January with zero degrees outside.
    Finally, the FAA came and replaced the windows and 
pronounced the tower in good shape. This is a tower that 
predates the jet age by about 20 years, and they haven't seen 
fit to build a new one.
    It is, to me, just astonishing that we have the entire 
aviation industry, essentially both houses of Congress, the 
FAA, DOT, all focusing on capacity limitations of technology in 
the current system, the need to upgrade technology to NextGen, 
and they are not paying attention to the workplace within which 
this new technology is going to be located and the men and 
women who have to operate that equipment under these appalling 
conditions.
    Our investigative staff has documented the roof leaks, the 
mold, the pest infestation, the poor quality heating, 
ventilation, air condition, asbestos, space limitations, 
unsanitary conditions, broken or damaged office equipment that 
hasn't been replaced or restored. You know if the headquarters 
folk of DOT or FAA had to operate under those conditions, there 
would be a really fast response.
    In fact, even this Committee, here you have the Department 
of Transportation headquarters with such bad and poorly 
functioning heating/air conditioning units that they had mold 
causing illnesses within similar to Legionnaire's disease 
within the building. This Committee, seven, eight years ago 
approved a new structure for DOT costing nearly a billion 
dollars. It didn't take them long to fix that.
    Maybe we should have shaved some of that money off the new 
DOT headquarters and put into the air traffic control 
facilities. We were counting on FAA to be not only good 
stewards of safety in the air but good stewards for the women 
and men who operate the air traffic control system to make sure 
that safety is maintained at its highest level.
    It is a great tribute, Mr. Forrey, Ms. Gilbert and Mr. 
Brantley, to your members that they operate under these 
deplorable conditions. I have been in those towers. I have been 
in the facilities that have the mold, that have the leaks, and 
in the case of Duluth in my district that have the snow coming 
in the windows.
    FAA needs to spend a little more time and pay a good deal 
more attention to the needs of the very system that they are 
trying to operate and to upgrade.
    What do you think is needed, Mr. Forrey, Ms. Gilbert?
    What are your thoughts about what kind of investments and 
what timetable and schedule and what needs to be fixed 
internally within FAA to get their attention, to address these 
problems and to do so in short order?
    Mr. Forrey. Thank you, Mr. Chairman.
    I believe probably the biggest thing that they could start 
with doing is to include their employees, the experts on all of 
these things, to what the solution should be.
    Mr. Oberstar. I mean there are no surveys? There are no 
sort of air traffic controller town meetings held with the 
Administrator to hear your concerns?
    Mr. Forrey. Not that I am aware of.
    There are surveys that are put out. I think the last survey 
that the Agency put out, the Employee Attitudes Survey, was 
they ranked, I think, a whole 13 percent of job satisfaction by 
the employees or 9 percent job satisfaction.
    They came out 243 out of 243 as far as employee 
dissatisfaction with their Agency based on a lot of these 
issues, a lot of the things that are going on with the Agency 
today, the state of the facilities, what their conditions they 
work in, the way they are treated by management, the way they 
are left out of the process of any decision-making. All those 
things have a morale so low in the FAA that you can only go up, 
quite frankly.
    Mr. Oberstar. That is deplorable.
    Ms. Gilbert?
    Ms. Gilbert. As far as the Agency, I was a little disturbed 
to hear testimony earlier from the first panel that funds were 
available and they have yet to use those funds to maintain 
their facilities.
    I would say in addition to the collaboration piece, working 
with their employees to improve the working conditions, they 
should also look closer at their workman's comp claims and not 
controvert those as they come into their desks and actually 
look at these people and take them serious instead of what Mr. 
Johnson did in his testimony which is advocate that those 
people had a chance to leave New York TRACON.
    I immediately heard it when I went into my building the 
very next day that those controllers, from FAA management 
perspective, made the whole story up. Forget the story that 
they went into a hospital after the fact and did test positive 
for carbon monoxide in their system.
    So workman's comp claims, I think if they paid attention to 
those, it would help quite a bit as well.
    Mr. Oberstar. What cost will it take, Mr. Brantley? Have 
you done some estimates of annual or recurring costs needed to 
upgrade facilities?
    Mr. Brantley. Mr. Chairman, I think part of the answer is 
that it depends because the way the FAA currently performs the 
maintenance on its infrastructure is they wait until it is 
completely failing, and the cost then is so much higher than it 
would be if you fixed it originally. So the cost should be much 
lower than it will ultimately be.
    I believe the estimates are somewhere between $250 and $350 
million for the current backlog on the manned facilities. The 
other 22,000 that were discussed earlier, I have no idea what 
that cost would be, and consolidation isn't the same kind of a 
panacea for unmanned facilities that some believe it is for the 
manned facilities. Most of these are navigation systems, 
communication systems that have to be there regardless of where 
the TRACON or tower is located.
    They have to begin doing it now, and they have to begin 
doing it right or the problem is going to snowball until it is 
something that is unmanageable.
    Mr. Oberstar. Let me ask your help in preparing for the 
Committee in the next week or so before we hopefully bring the 
FAA Reauthorization Bill to the House Floor. A compilation of 
facilities that you would rank in some order of urgency of need 
of repair and a ballpark cost estimate, get that to us, and let 
us see if there is some way that we can work with that before 
we bring the authorization bill to the House Floor.
    Mr. Brantley. Absolutely. I would be happy to do.
    Mr. Oberstar. I think we ought to do that. We owe it to 
you. The FAA owes it to you.
    Thank you, Mr. Chairman.
    Mr. Costello. Thank you, Chairman Oberstar.
    Ms. Gilbert, you mentioned in your testimony that there are 
at least 40 facilities that you are aware of that have reported 
problems with mold.
    We have heard testimony earlier. You heard me ask the 
question of Mr. Johnson from the FAA, how many facilities that 
they actually made an FCI assessment on, and it was the 
Committee's information that 89 of 401 facilities actually had 
been assessed, obviously a very small number.
    My question is if, in fact, you are aware of 40 facilities 
that have mold, do you have a list now? Either NATCA or PASS, 
have you compiled a list based upon the complaints from your 
members, listing those facilities that have mold, that have 
other structural problems or other problems that present unsafe 
or unhealthy conditions?
    Ms. Gilbert. Yes, we do have a list of those facilities, 
and we can provide that to the Committee. Of the facilities 
that we do know of that have, at least 40, and I am saying at 
least 40. There may be more.
    My facility itself has roof leak issues, and so there are 
facilities around the Country. You don't know what kind of 
problems you have when the leaks don't get fixed and the mold 
is allows to get worse in facilities. So we can provide that.
    Mr. Costello. The list that you have, is it prioritized 
starting with the facility that you believe should be addressed 
first based upon the existing conditions?
    Ms. Gilbert. Yes. It is a result of our survey. We can 
gather further data from those that did not respond. We did 
rank them based on the type of issues they had in their 
facilities and the severity of those issues.
    Mr. Costello. I heard in your testimony and I would like 
you to clarify for me that you were somewhat surprised when Mr. 
Johnson talked about some type of list that the FAA has that 
apparently you were not aware of, is that correct?
    Ms. Gilbert. That is correct.
    Mr. Costello. Clarify that for me. You were not aware that 
they have a list at all?
    They obviously had not solicited your opinions, solicited 
information from you or your members. Is that a correct 
statement?
    Ms. Gilbert. That is correct.
    Mr. Costello. Obviously, and I think I pointed out with the 
first panel that Mr. Poe from Texas made the point on the 
TRACON and tower consolidation effort by the FAA, that there 
has been a horrible lack of communication not only with Members 
of Congress and our staff and the Committee but also with the 
stakeholders, with the controllers and with everyone involved 
in the system.
    Obviously, that is a problem with this situation as well, 
that they are not soliciting information from their own 
employees, from members of PASS, members of NATCA and others to 
ask for your help in reporting these problems so that they can 
be addressed.
    Also, I made the point over and over that, of course, Mr. 
Johnson does not have the final say on the FAA's budget, on the 
F&E account, but this Congress approved a $3 billion 
authorization for the F&E account. For the last three years, 
the FAA has requested less than the authorized amount. They 
have requested $2.5 billion versus $3 billion. They have left 
$500 million behind, and that is one of the reasons why in my 
judgment that we have all of these maintenance challenges that 
they are not undertaking.
    The Congress recognized the problem, and the Congress 
authorized the money, but the FAA has not used the money or 
requested the full authorization level.
    I have a question about process. You heard me ask Mr. 
Johnson the process if, in fact, an employee feels that they 
have health problems as a result of the conditions in the tower 
or the facility where they are working. What is the process, 
and he said, well, the employee fills out a form and files the 
form with the Agency.
    One, Mr. Forrey, I would ask you to walk us through the 
process from the employees' perspective, from your members' 
perspective, and I would ask Mr. Brantley to do the same. What 
is the process?
    I will have some other questions when you are finished 
explaining.
    Mr. Forrey. The process is when an employee gets injured on 
the job, it is a workman's comp claim, what they refer to as 
CA1 or a CA2 or an occupational disease meaning long exposure 
to some condition at work.
    In all these cases, the Agency is controverting every 
single claim filed by the employees. They have hired people 
from the Department of Labor that understand workman's comp 
claims and are showing them how to beat them in court or how to 
win them back. It is actually pretty disgusting what they are 
doing in my opinion.
    I have employees right now that the answer to any claim 
that is approved by the Department of Labor, a lot of times the 
answer by the Agency as well, is they have their claim, that is 
their compensation, but yet these people have to go back to 
work sometime.
    I have a couple of people at Detroit that were affected by 
the mold. The one has stachybotrys antibodies in his blood 
system. His brain is deteriorating. There is no way he is ever 
going to be able to go back to work. The Agency fights his 
claim, and now the guy is looking to filing bankruptcy. This is 
the kind of stuff that is going on in the field.
    The employees down at Jacksonville where the contractor let 
the toxic chemicals come through the ceiling, where controllers 
were complaining about the smell. It was making them nauseous, 
and they were having a difficult time concentrating and seeing. 
They got a hard time with the manager there because they don't 
want to interrupt the operation.
    It took five days--five days--for the Agency to do 
something. The result was they brought in some big fans to blow 
air, and then they test the air in front of the big fan and 
say, see, the air is fine in here.
    At Detroit, they won't even test the mold. They won't even 
test it to verify that it is black mold any recent time.
    We offered as a union to supply the money to put air 
scrubbers and to monitor the air when they did these projects 
when they first started, and they refused that. So now they 
spent millions of dollars trying to remediate that building, 
and it has still got mold growing in it.
    That is the kind of fighting that the Agency has been doing 
with us, and I don't understand why. We are there to help them. 
I mean we even offered to pony up to say we will pay for the 
air scrubbers if you don't want to do, and yet we find out that 
they have 500 million that they don't even spend. I don't 
understand that at all.
    Mr. Costello. Mr. Brantley?
    Mr. Brantley. Thank you, Mr. Chairman.
    I agree with the process as described by Mr. Forrey of when 
an employee is exposed to something or is injured on the job. 
They fill out the form, and then they begin defending 
themselves for the next several months or years, however long 
it takes to get resolved.
    When it comes to an employee maybe not being injured but 
finding a problem, it is a very similar process. It is a 
different form, but they will fill out a form. They will make 
an entry in a maintenance log for that facility, saying that 
they found whatever the problem is. They will report it to 
their supervisor, and that is where it sits.
    It is kind of ironic that one of the things that we noticed 
first after you announced the hearing was upcoming was the word 
got out to the field that if anyone had any maintenance 
problems, they should get them in so that they could get them 
into the budget. I am sure as soon as any attention blows over, 
that is going to become irrelevant again, but it kind of 
illustrates how the Agency views it. It is a problem when 
someone is paying attention and other than that, there is no 
process to actually resolve them.
    Mr. Costello. Also, the statement that you made about the 
word went out for an assessment certainly goes to the point 
that aggressive oversight by the Congress and by Committees of 
the Congress, in particular in this case, this Committee. 
Aggressive oversight gets results from Federal agencies, and 
the lack of oversight gets no results.
    Mr. Brantley. Yes, sir, and we thank you for that.
    Mr. Costello. Let me ask you. In your judgment, when an 
employee files a workman's comp claim, does it trigger an FCI 
assessment by the FAA?
    In other words, if an employee files a claim, a workman's 
comp claim, if they are either injured or have some type of 
problem, health problem, as a result of working in a particular 
facility, does the FAA come out and make an assessment, Mr. 
Forrey?
    Mr. Forrey. I am not aware of that. I mean that was the 
first I heard of this FCI assessment today anyway. I had no 
idea they were doing that. I would not know if that triggers 
anything in their mind.
    Mr. Costello. So you had no idea before the testimony today 
that there was an FCI assessment that even existed?
    Mr. Forrey. No, I wasn't aware of it.
    Mr. Costello. Ms. Gilbert?
    Ms. Gilbert. No, I was not aware of that.
    Mr. Costello. Mr. Brantley?
    Mr. Brantley. I was made aware in the last week in 
preparing for the hearing, but no, to my knowledge, it doesn't 
trigger any kind of analysis.
    Something, if I might add, our internal experts have told 
us that they believe the FCI assessments are maybe not being 
done as well as they should be or as thoroughly either, that it 
may be more of a checklist that someone is going through and 
not actually doing an analysis to figure out where problems 
are.
    Mr. Costello. Final question and then I will turn to the 
Ranking Member of the Subcommittee.
    You have indicated in your testimony, Mr. Forrey, and I 
think you as well, Mr. Brantley, that some of these conditions, 
you believe are in violation of OSHA standards. So my question 
is have either you on behalf of your members or any of your 
members filed a complaint with OSHA and asked OSHA to come out 
and make inspections to determine if there are violations?
    Mr. Forrey. Yes, we have in several locations, and OSHA has 
come out in several locations and filed a complaint or a notice 
to the Agency that they need to fix a certain situation 
ongoing.
    Then there is some gray area as to what OSHA requires under 
like remediation for mold and what the industry standard 
requires. So we play games back and forth about that instead of 
just doing what is right for the employees, and that is 
unfortunate as well.
    Yes, we have gotten OSHA involved in many of these 
situations.
    Mr. Costello. Mr. Brantley?
    Mr. Brantley. Yes, Mr. Chairman, we have also done that. 
When it involves a situation where employees are or there is an 
immediate threat that they will be in some way injured or their 
health will be at risk, we have had good luck with OSHA being 
willing to come.
    One of the things we find is if it is just a potential 
risk, OSHA is very reluctant to even come do an inspection. 
They have their marching orders too, and I think as much as 
possible they are told to leave the Federal Government alone 
unless they have to do something.
    Mr. Costello. Well, in addition to Chairman Oberstar's 
request of providing a list to us of facilities that have 
problems, I would ask you to provide a separate list of those 
that you believe are in violation of OSHA standards.
    Mr. Oberstar. Mr. Chairman, if I may interrupt for just a 
moment if the Chairman would yield.
    Mr. Costello. Yes, please.
    Mr. Oberstar. I find it astonishing that FAA is hiding 
behind the excuse: We need to modernize to NextGen our air 
traffic control facilities. Therefore, we can't improve these 
facilities.
    The comment, in fact, by an FAA witness was that our 
transition to NextGen would be at risk. The result would be 
aviation gridlock. They are not going to have NextGen in place 
for 10 years. Meanwhile, they are going to ask all these air 
traffic controllers to suffer in the mold and the insects and 
the disease visited upon them by these wretched facilities. 
That is appalling. We have to fix that.
    Thank you.
    Mr. Costello. The Chair thanks the gentleman and now 
recognizes the Ranking Member, Mr. Petri, for any questions or 
comment.
    Mr. Petri. Thank you very much and thank you for your 
testimony here today.
    I guess I am kind of sitting here, thinking about what we 
can do to improve the situation going forward. It is easy. It 
is not easy, but it is important to point out problems and it 
is frustrating.
    We have very talented, dedicated, able people who are air 
traffic controllers with a lot of responsibility. I met with 
the Association of the Supervisors, and they are gung-ho and 
hard-focused people as well.
    There must be some way we can do a better job of involving 
people in coming up with solutions for managing the environment 
that they are working in properly. It is not just money. In 
fact, there might be ways of saving money if it is done with 
better communication and more involvement.
    One of the frustrations in any of these large organizations 
is that you fill something out and nothing happens. If there is 
better communication and there is some way of solving a 
problem, it helps morale and the glass is then half full 
instead of half empty.
    I don't know if there are ways we can be helpful at all, 
and this hearing may help some, not in a gotcha exactly, but it 
focuses on a problem. We need to focus on areas of making the 
job more satisfying and making the environment better and 
making sure we helping morale. That helps safety in the long 
run if people feel that they have respect and if they have a 
problem.
    We can all be wrong, too. In some areas, it may be that 
there is a reason why things are the way they are.
    I don't know if you have any comments on that, but if there 
are some things because we are working on a reauthorization 
now. It can be put in a political context, but this has been 
going on for many years in one Administration or another. It is 
sort of a bureaucratic organizational problem.
    I know you are new, so you would like to try to help, I 
suspect. If there are some ways that we can be constructive 
going forward, I would be eager to work with you on it.
    Mr. Forrey. Thank you, Mr. Petri. I may be new in this 
position, but I have been involved with the FAA for almost 23 
years now and as a representative of the union for almost 19.
    I think up to a few years ago, we worked quite well 
together between the Agency and the unions as far as 
collaboratively to make things better and looking into the 
future.
    I don't know what the rationale behind the Agency is that 
they don't want to spend money appropriated to them or 
authorized for them to spend on their maintenance of the 
system. I mean I am somewhat cynical after working for the 
Agency and dealing with them for the last 23 years, that if 
they let these buildings go into disrepair, it is much easier 
to consolidate. That is, I think, some of the motivation here, 
to be honest with you.
    Again, we are not opposed to consolidations. This is the 
21st Century. We need to think ahead to the Next Generation of 
the air traffic control system which right now is nothing more 
than a concept anyway. To do that together is the best way to 
do that.
    But we can't forget the here and now. I mean we still have 
314 facilities across this Country that are providing safety 
services to the public, and we need to make sure that the 
people operating those facilities can do the jobs that they 
were hired to do and trained to do.
    Collaboratively, I think you guys touched on it in H.R. 
2881 as far as the process for consolidations. The whole deal 
with air space, the whole deal with modernizing the system, 
they need to bring the experts into this process and right now 
we are not in this process. We have been shut out of this 
process.
    Until that changes and you, by this Congress, can change 
that, it would be the best thing to do to get us moving in the 
right direction.
    Mr. Costello. The Chair thanks the Ranking Member.
    The final question that I have before I go back to the 
Chairman of the Full Committee, Mr. Oberstar, Mr. Forrey and 
Mr. Brantley, in particular, you are aware of the process that 
we have set up in the FAA reauthorization bill for the 
consolidation of the TRACONs and towers.
    My question is that, obviously, what we attempted to do is 
to bring the stakeholders, to get everyone's opinion, to have a 
process where obviously one of the problems here with the 
unsafe and unhealthy working conditions is that the FAA is not 
talking to or listening to the employees who have to work in 
these facilities every day. With the consolidation and closing 
of TRACONs and towers, we want to make certain that the 
stakeholders are involved, that the people who work in those 
facilities every day have input as to what should happen as far 
as consolidation is concerned.
    The question that I have, you have had an opportunity to 
review the language in the legislation that passed the Full 
Committee and hopefully is on its way to the House. I wonder if 
you might comment on the process that we have established in 
the bill.
    Mr. Forrey. Thank you, Mr. Chairman.
    I have. I think that the language in the current bill is 
very good language. I think it could be tightened up quite a 
bit.
    Again, it is my cynicism of dealing with the Agency over 
the last several years. They want to continue forward with the 
consolidations that they have on the table right now, but they 
have not evaluated whether that is a safety issue, whether 
service to the users, and they want to just barrel ahead 
because that is the way they have done things.
    That would be my only, for lack of a better word, criticism 
of the bill is it still gives them the ability to forge ahead 
even though they are listening to us. They are listening, but 
that doesn't mean they are going to take anything into account 
that we say.
    So I think that would be helpful, something in the language 
of the bill that would tighten that up a bit, that would at 
least force the Agency to adopt some of these issues that these 
user groups are coming up with that meet within obviously the 
budget and the admission of the Agency. I mean that is all I 
can say on that.
    Mr. Costello. In the process, of course, as I mentioned in 
my opening statement, the Congress has the last say.
    Mr. Brantley?
    Mr. Brantley. Yes. Thank you, Mr. Chairman.
    I think the language is extremely good and helpful because 
I don't see it stopping anything. What I do see is it requiring 
good decisions made for the right reasons and done in the light 
of day, and I think that is always much better than just doing 
something and making everyone come along, whether it is a good 
idea or not. I think it is something that could help the Agency 
consolidate where it makes sense--when it makes sense.
    If I might, if I could beg your indulgence for a moment, 
something just struck me that I would like to respond to from a 
couple of remarks earlier about the idea of the maintenance 
either not being done properly or even there was a comment that 
maybe it is too hard to fire people if they can't do their 
jobs.
    The reality is when we are talking about people responsible 
for the maintenance of these facilities, there is no one left 
to fire. That workforce has been reduced so much that they 
don't send them out to do maintenance. The bulk of their time 
is spent on new construction, new installation. There is just, 
frankly, no one left to do the work.
    Mr. Costello. The Chair thanks the gentleman.
    I understand that Mr. Boozman may have a question.
    Mr. Boozman. I just have a question, a couple questions, 
Mr. Chairman.
    Mr. Costello. The gentleman is recognized.
    Mr. Boozman. Thank you very much.
    I guess the question I would have is that these things, I 
know you have had some challenges working with the 
Administration the last few years or whatever as you alluded 
to, Mr. Forrey. These things don't just happen overnight, 
though. In other words, things just don't go in disrepair.
    I have a great deal of sympathy for people that are working 
in adverse conditions, and it is something that we need to get 
fixed. I guess my question is, again, this is something that 
hasn't just happened. There is something systemically wrong in 
the system or we wouldn't be in this condition.
    In other areas, the VA and things like that, the 
authorizing Committee specifically working, in the case of the 
VA or whomever, works with that. Hopefully, they work with 
everyone within the agency, and then they come up with a list 
of hospitals and things that need work and this and that to try 
and depoliticize the process.
    I guess my question is do we need to look at the process? 
Do we need to look at maybe doing some things like that that 
perhaps would make us a little bit more efficient?
    I think there is probably two things going on. Just a lack 
of money, a lack of resources, and certainly that is out there. 
The other thing is that there probably is some politicization 
of the process, and maybe money is at times getting there 
because of a squeaky wheel that it winds up getting in that 
situation.
    Could you comment on that? Would that be helpful if we 
looked at perhaps?
    Again, I am not advocating that we do that tomorrow but 
start looking in that direction, maybe we as the authorizing 
Committee getting a little bit more involved with specific 
projects authorized based on input from the workers and the 
FAA.
    Mr. Forrey. I think anything that the Committee can do that 
would include all the stakeholders like the current language 
does in the bill is a positive step in the right direction.
    What would concern me about, and maybe I heard you wrong 
and I think what has happened in the past is that certain 
constituencies have kind of stolen some of that money to do 
something in this district instead of working on a project that 
was in disrepair, that needed fixed over here. I think some of 
that has gone on in the past and probably will in the future.
    But I think the maintenance of the facilities, it is like 
the infrastructure problem that Tom Brantley brought up 
earlier. It is not seen. People don't see it, and people don't 
have to look at it every day, day in and day out, and they 
don't understand how bad it is and in how much disrepair it is.
    I think that anything that you could have, any process that 
is in place that provides input from all users and all the 
stakeholders, that identifies that and prioritizes what needs 
to get fixed would be great. We don't have that right now.
    Mr. Brantley. Thank you for the question.
    I think I agree that any input or any help that the 
Subcommittee could give to help bring people together and 
actually talk through the problem and try to find solutions 
that make sense would be more than welcome. I think figuring 
out what the real problems are might be harder than it seems on 
the surface.
    I think, as you mentioned, lack of resources. I personally 
have a hard time with the Agency talking about other priorities 
getting in the way and then the money is then diverted for 
something, whether it has been earmarked by a Member or 
whatever.
    The fact is if they need $350 million and they ask for $60, 
you can't take something away that they never got. So I think 
the whole idea of that is just to me, ludicrous.
    I think they need to be a little more forthcoming about 
why. Frankly, I don't care why, but they need to start asking 
for what they need. That is very important.
    Mr. Boozman. Thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks the gentleman and now 
recognizes the distinguished Chairman of the Full Committee, 
Chairman Oberstar.
    Mr. Oberstar. Thank you, Mr. Chairman, and I thank our 
panel for their thoughtful observations and for the factual 
presentation.
    We do not allow earmarks in the FAA authorization bill. 
Sometimes they creep into appropriations bills for one or 
another facility but usually in Committee report language and 
not in bill legislative language.
    Over all my service in Congress, we have trusted the FAA to 
make good decisions within the scope of the NAIP, the National 
Aviation Investment Plan, for what is in the best interest of 
aviation nationwide, for investment in runways and taxiways, 
the hard side of airports to create the greatest opportunity 
for capacity enhancement.
    We have trusted the FAA to make its decisions on 
installation of new technologies at air traffic control 
facilities. When the DSR was installed, we didn't say put it in 
this place or in that facility. When the STARS was installed, 
we didn't tell them which facilities to start with. When the 
VSCS, Voice Switching and Control System, was put in place, we 
didn't tell FAA which facility to start with. We trusted to 
their judgment.
    We are not proposing--I am not proposing at least--in 
asking for a listing of facilities to categorize those in a 
bill but to give FAA specific direction to deal with their 
health of their workers in the workplace.
    When flight attendants said smoking is damaging our health, 
it is causing us increased expense to maintain our work 
uniforms, this aluminum tube is our workplace, this Committee 
held 10 hours of hearings, 10 hours of markup to fix the 
problem. Eventually, we had to take it to the House Floor and 
impose, through an amendment impose first a limitation and then 
elimination of smoking in that workplace.
    Well, we need to address the workplace of air traffic 
controllers. I don't care if NextGen comes in next week. They 
need to fix those facilities now. There is no excuse to have 
mold, rain dripping in your workplace, snow blowing into the 
windows, flies in the wintertime asbestos circulating through 
the workplace. That is intolerable.
    The FAA cannot hide behind modernization of air traffic 
control and say, oh, by the way, we can't fix these facilities 
because we want to consolidate them. That consolidation is 
going to take five or ten years. It is nonsense.
    I am sorry I missed the FAA panel. I wanted to tell them 
that firsthand. But they are following this. They will hear it, 
and they are going to hear it from me directly. I hope that by 
the time we get to the House Floor, we will be able to fix it 
in the authorization bill.
    Mr. Costello. The Chair thanks Chairman Oberstar and thanks 
our panel of witnesses.
    Let me not only thank you for being here today to present 
your testimony but also to let you know that we intend to 
continue to provide oversight over the Agency and this will not 
be the last time that we visit this issue. I assure you we will 
revisit the issue and make certain that the FAA proceeds with a 
plan to address these facilities.
    We thank you, and the Committee stands adjourned.
    [Whereupon, at 12:42 p.m., the Subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] T6964.149
    
    [GRAPHIC] [TIFF OMITTED] T6964.150
    
    [GRAPHIC] [TIFF OMITTED] T6964.151
    
    [GRAPHIC] [TIFF OMITTED] T6964.152
    
    [GRAPHIC] [TIFF OMITTED] T6964.153
    
    [GRAPHIC] [TIFF OMITTED] T6964.154
    
    [GRAPHIC] [TIFF OMITTED] T6964.155
    
    [GRAPHIC] [TIFF OMITTED] T6964.156
    
    [GRAPHIC] [TIFF OMITTED] T6964.017
    
    [GRAPHIC] [TIFF OMITTED] T6964.018
    
    [GRAPHIC] [TIFF OMITTED] T6964.019
    
    [GRAPHIC] [TIFF OMITTED] T6964.020
    
    [GRAPHIC] [TIFF OMITTED] T6964.021
    
    [GRAPHIC] [TIFF OMITTED] T6964.022
    
    [GRAPHIC] [TIFF OMITTED] T6964.023
    
    [GRAPHIC] [TIFF OMITTED] T6964.024
    
    [GRAPHIC] [TIFF OMITTED] T6964.025
    
    [GRAPHIC] [TIFF OMITTED] T6964.026
    
    [GRAPHIC] [TIFF OMITTED] T6964.027
    
    [GRAPHIC] [TIFF OMITTED] T6964.028
    
    [GRAPHIC] [TIFF OMITTED] T6964.029
    
    [GRAPHIC] [TIFF OMITTED] T6964.030
    
    [GRAPHIC] [TIFF OMITTED] T6964.031
    
    [GRAPHIC] [TIFF OMITTED] T6964.032
    
    [GRAPHIC] [TIFF OMITTED] T6964.033
    
    [GRAPHIC] [TIFF OMITTED] T6964.034
    
    [GRAPHIC] [TIFF OMITTED] T6964.035
    
    [GRAPHIC] [TIFF OMITTED] T6964.036
    
    [GRAPHIC] [TIFF OMITTED] T6964.037
    
    [GRAPHIC] [TIFF OMITTED] T6964.038
    
    [GRAPHIC] [TIFF OMITTED] T6964.039
    
    [GRAPHIC] [TIFF OMITTED] T6964.040
    
    [GRAPHIC] [TIFF OMITTED] T6964.041
    
    [GRAPHIC] [TIFF OMITTED] T6964.042
    
    [GRAPHIC] [TIFF OMITTED] T6964.043
    
    [GRAPHIC] [TIFF OMITTED] T6964.044
    
    [GRAPHIC] [TIFF OMITTED] T6964.045
    
    [GRAPHIC] [TIFF OMITTED] T6964.046
    
    [GRAPHIC] [TIFF OMITTED] T6964.047
    
    [GRAPHIC] [TIFF OMITTED] T6964.048
    
    [GRAPHIC] [TIFF OMITTED] T6964.049
    
    [GRAPHIC] [TIFF OMITTED] T6964.050
    
    [GRAPHIC] [TIFF OMITTED] T6964.051
    
    [GRAPHIC] [TIFF OMITTED] T6964.052
    
    [GRAPHIC] [TIFF OMITTED] T6964.053
    
    [GRAPHIC] [TIFF OMITTED] T6964.054
    
    [GRAPHIC] [TIFF OMITTED] T6964.055
    
    [GRAPHIC] [TIFF OMITTED] T6964.056
    
    [GRAPHIC] [TIFF OMITTED] T6964.057
    
    [GRAPHIC] [TIFF OMITTED] T6964.058
    
    [GRAPHIC] [TIFF OMITTED] T6964.059
    
    [GRAPHIC] [TIFF OMITTED] T6964.060
    
    [GRAPHIC] [TIFF OMITTED] T6964.061
    
    [GRAPHIC] [TIFF OMITTED] T6964.062
    
    [GRAPHIC] [TIFF OMITTED] T6964.063
    
    [GRAPHIC] [TIFF OMITTED] T6964.064
    
    [GRAPHIC] [TIFF OMITTED] T6964.065
    
    [GRAPHIC] [TIFF OMITTED] T6964.066
    
    [GRAPHIC] [TIFF OMITTED] T6964.067
    
    [GRAPHIC] [TIFF OMITTED] T6964.068
    
    [GRAPHIC] [TIFF OMITTED] T6964.069
    
    [GRAPHIC] [TIFF OMITTED] T6964.070
    
    [GRAPHIC] [TIFF OMITTED] T6964.071
    
    [GRAPHIC] [TIFF OMITTED] T6964.072
    
    [GRAPHIC] [TIFF OMITTED] T6964.073
    
    [GRAPHIC] [TIFF OMITTED] T6964.074
    
    [GRAPHIC] [TIFF OMITTED] T6964.075
    
    [GRAPHIC] [TIFF OMITTED] T6964.076
    
    [GRAPHIC] [TIFF OMITTED] T6964.077
    
    [GRAPHIC] [TIFF OMITTED] T6964.078
    
    [GRAPHIC] [TIFF OMITTED] T6964.079
    
    [GRAPHIC] [TIFF OMITTED] T6964.080
    
    [GRAPHIC] [TIFF OMITTED] T6964.081
    
    [GRAPHIC] [TIFF OMITTED] T6964.082
    
    [GRAPHIC] [TIFF OMITTED] T6964.083
    
    [GRAPHIC] [TIFF OMITTED] T6964.084
    
    [GRAPHIC] [TIFF OMITTED] T6964.085
    
    [GRAPHIC] [TIFF OMITTED] T6964.086
    
    [GRAPHIC] [TIFF OMITTED] T6964.087
    
    [GRAPHIC] [TIFF OMITTED] T6964.088
    
    [GRAPHIC] [TIFF OMITTED] T6964.089
    
    [GRAPHIC] [TIFF OMITTED] T6964.090
    
    [GRAPHIC] [TIFF OMITTED] T6964.091
    
    [GRAPHIC] [TIFF OMITTED] T6964.092
    
    [GRAPHIC] [TIFF OMITTED] T6964.093
    
    [GRAPHIC] [TIFF OMITTED] T6964.094
    
    [GRAPHIC] [TIFF OMITTED] T6964.095
    
    [GRAPHIC] [TIFF OMITTED] T6964.096
    
    [GRAPHIC] [TIFF OMITTED] T6964.097
    
    [GRAPHIC] [TIFF OMITTED] T6964.098
    
    [GRAPHIC] [TIFF OMITTED] T6964.099
    
    [GRAPHIC] [TIFF OMITTED] T6964.100
    
    [GRAPHIC] [TIFF OMITTED] T6964.101
    
    [GRAPHIC] [TIFF OMITTED] T6964.102
    
    [GRAPHIC] [TIFF OMITTED] T6964.103
    
    [GRAPHIC] [TIFF OMITTED] T6964.104
    
    [GRAPHIC] [TIFF OMITTED] T6964.105
    
    [GRAPHIC] [TIFF OMITTED] T6964.106
    
    [GRAPHIC] [TIFF OMITTED] T6964.107
    
    [GRAPHIC] [TIFF OMITTED] T6964.108
    
    [GRAPHIC] [TIFF OMITTED] T6964.109
    
    [GRAPHIC] [TIFF OMITTED] T6964.110
    
    [GRAPHIC] [TIFF OMITTED] T6964.111
    
    [GRAPHIC] [TIFF OMITTED] T6964.112
    
    [GRAPHIC] [TIFF OMITTED] T6964.113
    
    [GRAPHIC] [TIFF OMITTED] T6964.114
    
    [GRAPHIC] [TIFF OMITTED] T6964.115
    
    [GRAPHIC] [TIFF OMITTED] T6964.116
    
    [GRAPHIC] [TIFF OMITTED] T6964.117
    
    [GRAPHIC] [TIFF OMITTED] T6964.118
    
    [GRAPHIC] [TIFF OMITTED] T6964.119
    
    [GRAPHIC] [TIFF OMITTED] T6964.120
    
    [GRAPHIC] [TIFF OMITTED] T6964.121
    
    [GRAPHIC] [TIFF OMITTED] T6964.122
    
    [GRAPHIC] [TIFF OMITTED] T6964.123
    
    [GRAPHIC] [TIFF OMITTED] T6964.124
    
    [GRAPHIC] [TIFF OMITTED] T6964.125
    
    [GRAPHIC] [TIFF OMITTED] T6964.126
    
    [GRAPHIC] [TIFF OMITTED] T6964.127
    
    [GRAPHIC] [TIFF OMITTED] T6964.128
    
    [GRAPHIC] [TIFF OMITTED] T6964.129
    
    [GRAPHIC] [TIFF OMITTED] T6964.130
    
    [GRAPHIC] [TIFF OMITTED] T6964.131
    
    [GRAPHIC] [TIFF OMITTED] T6964.132
    
    [GRAPHIC] [TIFF OMITTED] T6964.133
    
    [GRAPHIC] [TIFF OMITTED] T6964.134
    
    [GRAPHIC] [TIFF OMITTED] T6964.135
    
    [GRAPHIC] [TIFF OMITTED] T6964.136
    
    [GRAPHIC] [TIFF OMITTED] T6964.137
    
    [GRAPHIC] [TIFF OMITTED] T6964.138
    
    [GRAPHIC] [TIFF OMITTED] T6964.139
    
    [GRAPHIC] [TIFF OMITTED] T6964.140
    
    [GRAPHIC] [TIFF OMITTED] T6964.141
    
    [GRAPHIC] [TIFF OMITTED] T6964.142
    
    [GRAPHIC] [TIFF OMITTED] T6964.143
    
    [GRAPHIC] [TIFF OMITTED] T6964.144
    
    [GRAPHIC] [TIFF OMITTED] T6964.145
    
    [GRAPHIC] [TIFF OMITTED] T6964.146
    
    [GRAPHIC] [TIFF OMITTED] T6964.147
    
    [GRAPHIC] [TIFF OMITTED] T6964.148
    
                                    

</pre></body></html>
